<html>
<title> - STAYING HEALTHY: HEALTH ISSUES SURROUNDING PROPOSED CHANGES IN CLEAN AIR STANDARDS</title>
<body><pre>[Senate Hearing 107-661]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-661
 
 STAYING HEALTHY: HEALTH ISSUES SURROUNDING PROPOSED CHANGES IN CLEAN 
                             AIR STANDARDS
=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON PUBLIC HEALTH

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                                 SECOND

                                   ON

EXAMINING PROPOSED IMPROVEMENTS TO THE NEW SOURCE REVIEW (NSR) PROGRAM 
    UNDER THE CLEAN AIR ACT, WHICH WOULD CHANGE THE REQUIREMENTS OF 
COMPANIES TO INSTALL STATE-OF-THE-ART POLLUTION CONTROL EQUIPMENT, AND 
  RELATED PROVISIONS OF S. 556, TO AMEND THE CLEAN AIR ACT TO REDUCE 
 EMISSIONS FROM ELECTRIC POWERPLANTS, AND S. 2815, TO AMEND THE CLEAN 
  AIR ACT TO REDUCE AIR POLLUTION THROUGH EXPANSION OF CAP AND TRADE 
 PROGRAMS, AND TO PROVIDE AN ALTERNATIVE REGULATORY CLASSIFICATION FOR 
              UNITS SUBJECT TO THE CAP AND TRADE PROGRAMS

                               __________

                           SEPTEMBER 3, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions







                       U. S. GOVERNMENT PRINTING OFFICE
81-700                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                 ______

                     Subcommittee on Public Health

                      EDWARD M. KENNEDY, Chairman

TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JAMES M. JEFFORDS, Vermont           MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            TIM HUTCHINSON, Arkansas
PAUL D. WELLSTONE, Minnesota         PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     CHRISTOPHER S. BOND, Missouri

                      David Nexon, Staff Director

                 Dean A. Rosen, Minority Staff Director

                                  (ii)

  






                            C O N T E N T S

                               __________

                               STATEMENTS

                           September 3, 2002

                                                                   Page
Edwards, Hon. John, a U.S. Senator from the State of North 
  Carolina, opening statement....................................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................     3
Holmstead, Jeffrey, Assistant Administrator, Office of Air and 
  Radiation, U.S. Environmental Protection Agency; and Kenneth 
  Olden, Director, National Institute for Environmental Health 
  Services, National Institutes of Health........................     4
    Prepared statements of
        Jeffrey Holmstead........................................     6
        Kenneth Olden............................................    22
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York, opening statement....................................    29
Browner, Carol M., Partner, The Albright Group, LLC, and Former 
  Administrator, U.S. Environmental Protection Agency; George D. 
  Thurston, Associate Professor of Environmental Medicine, New 
  York University School of Medicine, New York, NY; and Clay 
  Ballantine, M.D., Asheville, NC................................    36
    Prepared statements of
        Carol M. Browner.........................................    40
        Clay Ballantine, M.D.....................................    50

                          ADDITIONAL MATERIAL

Articles, publications, letters, etc.:
    George D. Thurston, prepared statement.......................    59

                                 (iii)

  


 STAYING HEALTHY: HEALTH ISSUES SURROUNDING PROPOSED CHANGES IN CLEAN 
                             AIR STANDARDS

                              ----------                              


                       TUESDAY, SEPTEMBER 3, 2002

                                       U.S. Senate,
Subcommittee on Public Health, of the Committee on Health, 
                            Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. John R. 
Edwards, presiding.
    Present: Senators Edwards and Clinton.



                  Opening Statement of Senator Edwards

    Senator Edwards. [presiding]. Good afternoon. I want to 
welcome everybody to today's Public Health Subcommittee hearing 
on ``Human Health and Proposed Changes to the Clean Air Act.''
    Today we are going to examine one of the most pressing 
health issues in our country today. For thousands of Americans, 
it is literally a question of life or death. For hundreds of 
thousands more, it is the difference between breathing free and 
suffering asthma attacks and heart problems.
    Since 1977, the new source review provisions of the Clean 
Air Act have helped Americans breathe easier. For power plants 
that existed in 1977, new source review created a very simple 
rule: You can keep running as long as you do not pollute more. 
But if you expand your plant and increase your pollution 
levels, you have got to clean up your act so Americans can 
breathe better.
    The Clinton Administration vigorously enforced the new 
source review provisions. They brought 51 enforcement actions 
against plants that appeared to have increased emissions 
without cleaning up.
    In these cases, I know that some people may think that this 
kind of air pollution enforcement is just about visibility in 
our National Parks. That is an important issue. When EPA 
Administrator Whitman visited the Great Smoky Mountains 
National Park on the 4th of July--Senator Frist's State and 
mine share that park, and he was actually there on that visit--
she could barely see 15 miles in a location where in the past, 
visibility of 75 to 100 miles was typical.
    But it is the health impact of pollution that is most 
extraordinary--the effect on respiratory disease, lung cancer, 
pediatric asthma, and premature death.
    I want to quote some figures from a research firm called 
Abt Associates. Abt is a highly respected firm that has worked 
for the EPA, the Centers for Disease Control, and many top 
private companies. They found that, first, pollution from U.S. 
power plants causes 30,000 premature deaths--30,000--and over 
600,000 asthma attacks every year. By themselves, the 51 power 
plants charged with violating new source review under the last 
administration caused over 5,500 premature deaths and over 
106,000 asthma attacks each year. If those plants installed the 
kind of pollution control equipment that new source review 
requires now, we would save over 4,300 lives and stop over 
80,000 asthma attacks.
    In my State of North Carolina, pollution is a health 
crisis. Thanks to Governor Easley, we now have one of the 
toughest clean air laws in the country. But a recent survey of 
20 States showed that our State ranks dead last for clean, 
smog-free air.
    Eighteen hundred people in North Carolina die from 
breathing smog, soot, and pollution every year. A study by the 
University of North Carolina School of Public Health found that 
in most of our counties, three in ten kids have asthma, which 
is three times more than the national average.
    In Asheville, NC, the death rate from lung disease went up 
40 percent between 1988 and 1997. So this is literally a life 
or death matter for our people in North Carolina.
    We are here today because the current administration has 
proposed major changes in new source review. Now, I believe 
that new source review can and should be reformed to make it 
less bureaucratic. But the need for reform should not be an 
excuse so that polluters can send more deadly pollution into 
the air without cleaning up. That is exactly what is happening 
here.
    Polluters get new leeway for calculating the so-called 
baseline for measuring pollution. They get a new safe harbor 
where new source review does not apply at all. And they get a 
broad new exception from new source review for so-called 
routine maintenance.
    That is what we do know. What is worst is what we do not 
know. This administration has offered no serious analysis--
zero; none--of how the proposal will affect the health of human 
beings. In their 32-page report on the new source review issued 
in June, EPA devoted only four pages to environmental 
protection and human health. The rest of the report was about 
energy.
    I asked about the human health effects of the 
administration's proposal at the last hearing on this subject. 
I was told that I would get data and analysis. It never came.
    Last month, a bipartisan group of 44 Members of the U.S. 
Senate sent a letter to EPA Administrator Whitman expressing 
``serious concerns'' about EPA's proposed changes. The letter 
said, and I quote: ``We ask that before finalizing any of these 
changes, EPA conduct a rigorous analysis of the air pollution 
and public health impacts of the proposed rule changes.''
    On Thursday of last week, I received a response from the 
EPA Administrator. I encourage everyone here to read her letter 
and look for the rigorous analysis of public health impacts 
that we asked for. I encourage you to try to find any analysis 
of the effects of the proposed changes on public health. You 
will not find it.
    It is outrageous that this administration treats the 
legitimate concerns of nearly half of the U.S. Senate--
Republicans and Democrats--with such open disrespect. It is 
hard to escape the conclusion that the proposed rule change 
amount to a gift for oil companies and power companies and a 
kick in the gut for thousands of people with serious health 
problems.
    I know that some here today will try to say that this 
committee should not have this hearing. Let me be very clear. 
This is not just a public health issue. It is a public health 
crisis. We have tens of thousands of people dying every year 
from pollution. If that is not a public health issue, I do not 
know what is.
    So we are looking to get straight answers out of this 
administration to a simple question: What is the impact on 
public health of the changes that you are proposing? If we do 
not get those answers, I for one will do my best to keep those 
changes from becoming law through an appropriations rider on 
this year's VA-HUD appropriations bill.
    Today, this administration has an opportunity to answer the 
questions of the 44 Senators who wrote their letter fully and 
fairly. I will be interested in seeing what we get in response.
    At this time I will submit for the record a statement from 
Senator Kennedy.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Today our committee considers the impact of the sweeping 
changes proposed by the Administration to the Clean Air Act's 
New Source Review on the health of all Americans. American 
families rely on the Environmental Protection Agency to 
guarantee that the air they breathe is safe and healthy. Today 
we will learn how proposed changes to the nation's air quality 
standards may affect the health of millions of Americans.
    There is no duty more important to our government than 
protecting the lives of our citizens. For thousands even 
millions of Americans, air pollution is a life-and-death 
situation. That is why today's hearing is so important. I am 
concerned that the proposed changes may constitute sweeping 
rollbacks of some of the most important provisions of the Clean 
Air Act, and will undermine existing regulations that improve 
air quality and protect the public health. These rollbacks will 
create new loopholes for our worst industrial polluters, weaken 
current environmental laws, and increase the threat to public 
health.
    These proposed changes will take their heaviest toll on the 
most vulnerable among us children and the elderly. Asthma rates 
for children have doubled in the last twenty years. Long term 
exposure to air pollution from coal-fired power plants and 
other sources leads to increases in the risk of death from lung 
cancer and heart disease, decreased lung function, more 
frequent emergency care, restricted activity, increased asthma 
attacks and increased deaths. We should be strengthening the 
nation's protections against air pollution not weakening them 
as proposed by the Administration.
    It is of great concern to this committee that EPA failed to 
conduct environmental and health impact analyses on these 
proposed changes prior to announcing its plans to relax air 
quality standards for some of the largest polluting industries 
in this country. Today's hearing will shed light on the effect 
that these changes will have on the health of the nation. We 
will have an opportunity to learn more about the real 
consequences of the proposed changes to these important air 
quality standards.
    I look forward to hearing from our panels on this crucial 
issue. And also, thank you to Senator Edwards for your 
leadership on environmental health and for aggressively 
pursuing tougher environmental health standards that protect 
all Americans.
    Senator Edwards. Our first panel of witnesses will begin 
with Mr. Jeff Holmstead, who is an assistant administrator at 
the EPA, and he will talk to us about the proposed changes in 
the Clean Air Act and the effects on human health.
    Then, we will hear from Dr. Olden, who is director of the 
National Institute for Environmental Health Sciences at NIH. 
Dr. Olden will help us understand the emerging research on air 
quality and health that his organization has supported.
    I want to thank Dr. Olden for joining us today. He is 
located in North Carolina, and he and I have traveled together 
fairly regularly on airplanes back and forth between North 
Carolina and Washington. We are glad to have you here, Dr. 
Olden.
    Mr. Holmstead, we will begin with you.

   STATEMENTS OF JEFFREY HOLMSTEAD, ASSISTANT ADMINISTRATOR, 
  OFFICE OF AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION 
  AGENCY; AND KENNETH OLDEN, DIRECTOR, NATIONAL INSTITUTE FOR 
  ENVIRONMENTAL HEALTH SCIENCES, NATIONAL INSTITUTES OF HEALTH

    Mr. Holmstead. Good afternoon, Senator Edwards.
    Thank you for giving me the chance to talk about the 
tremendous progress that we have made in protecting public 
health under the Clean Air Act.
    As you know, the Clean Air Act is by far the most 
comprehensive and complex of the environmental statutes enacted 
by Congress, and it has created hundreds of programs that 
collectively have helped us to improve air quality throughout 
the country.
    I know that you have a particular interest in one of these 
programs, the New Source Review Program, which is often 
referred to as NSR or the NSR Program. I look forward to 
answering your questions about this program and explaining how 
the changes we plan to make to the program will better protect 
air quality and public health.
    I would like to begin by providing some basic background, 
if I may.
    As this chart shows, since Congress passed the first Clean 
Air Act in 1970, our country has experienced tremendous growth. 
As you can see here, the population has increased since that 
time by about 36 percent; VMT, or vehicle miles travelled, has 
increased by 143 percent; and our economy, measured in terms of 
gross domestic product, has actually grown by 158 percent. 
During that same time period, pollution in the country has been 
reduced pretty dramatically by almost 30 percent over that same 
time period.
    The emissions reductions achieved under the Clean Air Act 
have produced significant public health benefits. We estimate 
that by the year 2010, the 1990 Amendments alone will have 
prevented tends of thousands of premature deaths, tens of 
thousands of cases of acute and chronic bronchitis, tens of 
thousands of respiratory-related and cardiovascular hospital 
admissions, and millions of lost work days.
    We have been able to achieve these successes thanks to 
American ingenuity and the wide range of tools and authorities 
available to us under the Clean Air Act. Despite our successes, 
we are still facing serious air quality challenges, the most 
important of which is the challenge posed by fine particle 
pollution, which is the most serious public health threat from 
air pollution today. We must also continue to reduce ground-
level ozone.
    To help us meet the new health-based standards we have set 
for these pollutants, we are implementing new emissions 
standards for motor vehicles and heavy-duty trucks and buses. 
We are also working on a rule to reduce emissions from large 
nonroad equipment. And, most important, as I have said on 
numerous occasions, we would like to work with Congress to pass 
the Clear Skies Act which would dramatically reduce emissions 
from power plants, which are the single most important air 
pollution problem that we have today.
    Along with all of these initiatives, we are also moving 
forward with long-awaited plans to improve the NSR program. For 
more than a decade, State and local government leaders, Members 
of Congress from both parties, and consumer and environmental 
groups have all acknowledged that NSR as it applies to existing 
sources does not work as well as it should.
    EPA has worked for more than a decade to improve the NSR 
program for existing sources, and the two sets of reforms that 
we announced in June are the product of this work. Soon, we 
will finalize changes originally proposed in 1996, and we will 
also propose for public comment a second set of changes later 
this year.
    The first set of reforms includes five major improvements 
to the NSR program. First, we are introducing something called 
plant-wide applicability limits, commonly referred to as PALs. 
Under this approach, a facility is given certain flexibility in 
exchange for agreeing to accept a cap on its plant-wide 
emissions. Let me give you an example.
    Currently, a typical computer chip manufacturing plant 
makes around 200 equipment and operational changes every year. 
Under the current NSR program, a plant operator must analyze 
each one of these changes to determine whether it might trigger 
NSR. For every proposed change that might trigger NSR, the 
plant cannot make the change until it goes through a lengthy 
process which can slow production or prompt plants to forego 
new opportunities.
    We know from some pilot projects that we have conducted 
that the same plant operating under a PAL operates much more 
efficiently and, at the same time, reduces pollution.
    A second change is called the clean unit provision. Under 
this provision, a plant with state-of-the-art pollution 
controls can apply to be certified as a ``clean unit.'' Changes 
at a clean unit plant will trigger NSR only if emissions exceed 
permitted limits. We anticipate that many companies will 
voluntarily install stringent emission controls in exchange for 
the regulatory certainty and flexibility that this provision 
provides.
    The third change addresses pollution control and prevention 
projects. This change will remove existing disincentives that 
discourage companies from implementing environmentally 
beneficial technologies. Under the current system, for example, 
a facility proposing to replace an oil-fired boiler with a much 
cleaner natural gas boiler must still go through the lengthy 
process of obtaining an NSR permit. Our new approach will 
encourage environmentally beneficial projects like this one by 
allowing them to proceed without going through the NSR process.
    Fourth, we are revising the way emissions increases are 
calculated. Right now, facilities making even modest changes 
often trigger new source review even though emissions will not 
actually increase. The change we are finalizing will allow 
facilities to base emission estimates on how much pollution 
they actually will emit.
    Finally, we will make a related change that establishes a 
fair method for determining emissions baselines. Our new 
approach will be much easier to implement than the current 
approach and should result in a more accurate estimate of 
baseline emissions.
    I know that, Senator, you and others have expressed concern 
that these changes may allow emissions to increase. Let me just 
tell you that we simply believe that this is not the case. EPA 
has been analyzing these changes for more than 8 years. Among 
other things, we have conducted pilot studies, held hundreds of 
meetings with concerned groups and citizens, and reviewed 
literally thousands of public comments. It is because of this 
work that we believe the changes we are making will have a 
positive impact on air quality.
    You and others have requested that we try to analyze the 
emissions impact of these changes quantitatively. I want to 
assure you that we will be responsive to this request. We are 
working right now to quantify the emissions reductions to the 
extent possible, and we will provide this analysis as part of 
the rulemaking record.
    Again, thank you for giving me the chance to appear before 
you today, and I would be happy to answer any questions that 
you may have.
    Senator Edwards. Thank you very much, Mr. Holmstead.
    [The prepared statement of Mr. Holmstead follows:]
                Prepared Statement of Jeffrey Holmstead
                            i. introduction
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity today to testify on improvements eve intend to make to the 
new source review (NSR) program under the Clean Air Act. I am pleased 
to be joined by Dr. Ken Olden of the National Institute of 
Environmental Health Sciences, who will address recent findings from 
the Federal particulate matter (PM) research program, in which both of 
our Agencies are prominent. The NSR program is one of many Clean Air 
Act programs. It allows for industrial growth without compromising our 
progress towards cleaner air. To accomplish this goal, the NSR program 
requires companies to install state-of-the-art pollution control 
equipment when they build a new major emitting facility or when they 
make a major modification to an existing plant that would result in a 
significant increase in emissions of a covered pollutant. Based on over 
10 years of EPA review of and public comment on the NSR program, the 
NSR program, as it applies to modifications of existing plants, needs 
to be modified to work better. As a result, we will soon be finalizing 
one set of improvements that were first proposed in the Clinton 
Administration and proposing another set of improvements. The changes 
that we are finalizing will make the program work better and provide 
public health and environmental benefits. For the changes that we will 
be proposing, one of the issues we will take comment on is their impact 
on public health and the environment.
    Since I have not testified in front of this Committee before. I 
would like to take this opportunity to describe the tremendous public 
health and environmental benefits of the many programs that comprise 
the Clean Air Act. I hope that this important background information 
wi11 also help you put the NSR program in context. The Clean Air Act, 
particularly the 1990 Amendments that were proposed and then signed 
into law by President George Herbert Walker Bush, has provided and 
continues to provide us with significant public health and 
environmental benefits. Since the 1990 Amendments were enacted, this 
nation has made great progress in reducing acid rain, meeting health-
based air quality standards, protecting the stratospheric ozone layer, 
and cutting toxic air pollution. Yet we still face major challenges to 
achieve healthful air, a cleaner environment, and clear skies for all 
Americans.
    In my statement today, I will describe the results we have achieved 
through Clean Air Act programs enacted to protect public health and 
environmental quality. I will then discuss the remaining air quality 
challenges we face today--particularly the need to protect public 
health by reducing levels of fine particle and ozone pollution. As we 
move forward to meet these new air quality challenges, it is important 
to evaluate existing programs and build upon or improve them. One of 
the key steps our country should take to reduce fine particle and ozone 
pollution quickly is for Congress to pass Clear Skies legislation-- 
which would build on the successful acid rain cap-and-trade program to 
reduce SO<INF>2</INF> and NOx emissions from power plants. It is also 
important to improve the NSR program. EPA's improvements are targeted 
to fix well known problems with the program, while maintaining the 
Clean Air Act's fundamental purpose of assuring that major modified 
sources take necessary measures to address their emissions increases.
                     ii. progress toward clean air
    Our progress on cleaning up the air demonstrates that strong 
economic growth and a cleaner environment can go hand-in-hand. Since 
the basic structure of today's Clean Air Act was enacted in 1970, we 
have reduced emissions of six key air pollutants by 30 percent. At the 
same time, the economy has grown substantially. The Gross Domestic 
Product increased 160 percent; vehicle miles traveled increased 145 
percent; energy consumption increased 45percent; and the U.S. 
population increased 35percent. This success story was made possible by 
American ingenuity--spurred in large part by legislation that 
recognized the importance of a clean environment. Our strong economy 
has helped us provide cleaner air, which has provided important public 
health and environmental benefits that far outweigh the costs. For 
example, lead levels in ambient air are 98 percent lower than in 1970, 
greatly reducing the number of children with IQs below 70 as a result 
of dirty air. The benefits from the programs in the 1990 Amendments 
alone are impressive. A peer-reviewed EPA study estimates that upon 
full implementation in 2010, the Clean Air Act programs signed into law 
by former President Bush will avoid tens of thousands of premature 
deaths, tens of thousands of cases of acute and chronic bronchitis, 
tens of thousands of respiratory-related and cardiovascular hospital 
admissions, and millions of lost work days, among other benefits.
    To appreciate how far we have come in reducing air pollution, it is 
instructive to remember where we were before the 1990 amendments. Acid 
rain essentially was unchecked, causing damage to aquatic life, 
forests, buildings and monuments, as well as visibility degradation and 
health risks from sulfate and nitrate particles. There was growing 
concern about the increasing damage to the stratospheric ozone layer, 
which, among other things, protects us from skin cancer and cataracts. 
In 1990, photochemical smog, which can impair lung function, cause 
chest pain and coughing, and worsen respiratory diseases and asthma, 
exceeded healthy levels in 98 metropolitan areas. Many cities did not 
meet the national air quality standards for the pollutant carbon 
monoxide, which can aggravate angina (heart pain), and also for 
particulate matter, which is linked to premature death, aggravation of 
pre-existing respiratory ailments, and reductions in lung capacity. The 
millions of tons of hazardous air pollutants emitted annually in the 
U.S. were largely unregulated at the Federal level. Many of these 
pollutants have the potential to cause cancer or other serious health 
effects such as nervous system damage.
    Since then, the 1990 Amendments have enabled us to substantially 
reduce each of the major air pollution problems that faced the U.S.:
    <bullet> Annual sulfur dioxide emissions. which react to form acid 
rain and contribute to fine particle formation, have been cut by more 
than 6.7 million tons, and rainfall in the eastern U.S. is as much as 
25 percent less acidic.
    <bullet> Production of the most harmful ozone-depleting chemicals 
has ceased in the U.S. and--provided the U.S. and the world community 
maintain the commitment to planned protection efforts--the 
stratospheric ozone layer is projected to recover by the mid 21st 
century.
    <bullet> Ground-level ozone pollution, particulate matter, and 
carbon monoxide pollution have all been reduced significantly, 
producing dramatic decreases in the number of areas in nonattaimnent.
    <bullet> Rules issued since 1990 are expected to reduce toxic air 
emissions from industry by nearly 1.5 million tons a year--a dozen 
times the reductions achieved in the previous 20 years. Other rules for 
vehicles and fuels will reduce toxics by an additional 500,000 tons a 
year by 2020.

Reducing Acid Rain

    The 1990 Amendments created the Acid Rain Program, calling for 
major reductions in electric generating facilities' emissions of sulfur 
dioxide (SO<INF>2</INF>) and nitrogen oxides (NOx), the primary 
pollutants that cause acid rain. The Acid Rain Program has been a 
resounding success, and at a much lower cost than first expected. The 
centerpiece of the program is an innovative, market-based ``cap-and-
trade'' approach to achieve a nearly 50 percent reduction in SO<INF>2</INF> 
emissions from 1980 levels.
    The results of the program have been dramatic--and unprecedented. 
Compliance with the Acid Rain Program began in 1995 and is now in its 
eighth year. From 1995-99, the first phase of the Acid Rain Program, 
annual SO<INF>2</INF> emissions from the largest, highest-emitting 
sources dropped by nearly 5 million tons from 1980 levels. These 
significant reductions were an average of 25 percent below required 
emission levels, resulting in earlier achievement of human health and 
environmental benefits.
    In 2001, the SO<INF>2</INF> emissions from power generation were 
more than 6.7 million tons below 1980 levels. NOx emissions have been 
reduced by 1.5 million tons from 1990 levels by a more traditional 
rate-based program (about 3 million tons lower than projected growth). 
Because the NOx component of the program is rate-based, however, there 
is no guarantee that NOx emissions will stay at these low levels; 
without a NOx cap, emissions will increase as power generation 
increases.
    These emissions reductions are delivering impressive environmental 
results. Due to the drop in SO<INF>2</INF> emissions, rainfall acidity 
in the eastern U.S. has dramatically improved, measuring up to 25 
percent less acidic. As a consequence, some sensitive lakes and streams 
in New England are showing the first signs of recovery. Further, 
ambient sulfate concentrations have been reduced, leading to improved 
air quality and public health, with fewer respiratory illnesses such as 
asthma and chronic bronchitis. Moreover, the air is clearer, 
particularly in areas where some of our most scenic vistas are found, 
such as the Shenandoah National Park. These emissions reductions and 
environmental results have been achieved at a much lower cost than 
anyone expected. In 1990, EPA projected the full cost of implementation 
of the SO<INF>2</INF> emission reductions would be about $5.7 billion 
per year (1997 dollars). In 1994, GAO projected the cost at $2.3 
billion per year (1997 dollars). Recent estimates of annualized cost of 
compliance are in the range of $1 to $1.5 billion per year at full 
implementation.
    The cost-effectiveness of the program is tied to the design 
features of the innovative cap-and-trade approach. The Acid Rain 
Program was designed to provide certainty that emissions reductions 
would be achieved and sustained while at the same time allowing 
unprecedented flexibility in how to achieve the needed emission 
reductions. This stimulates the use of a variety of emission reduction 
options, such as fuel switching, installation of control equipment, use 
of efficiency measures and renewables, and trading among sources. 
Because the market system places a monetary value on avoided emissions, 
compliance has stimulated tremendous technological innovation, 
including efficiency improvements in control technology.
    When the Acid Rain Program was designed in the early 1990s, some 
were concerned about the potential effect of emissions trading on local 
air quality. Now, in the eighth year of the program, we know that 
flexibility under the Acid Rain Program has not adversely affected 
attainment of air quality standards. Independent analyses of the 
program demonstrate that trading has not created ``hotspots'' or 
increases in localized pollution. In fact, the greatest SO<INF>2</INF> 
emissions reductions were achieved in the highest SO<INF>2</INF>-
emitting States, acid deposition decreased and, consistent with 
projections, the environmental benefits were delivered in the areas 
where they were most critically needed.
    The environmental integrity of the Acid Rain Program also can be 
traced to design features of the approach. The program was developed 
with unprecedented levels of accountability and transparency. Sources 
must continuously monitor and report all emissions, ensuring accurate 
and complete emissions information. All data are publicly available on 
the Internet, providing complete transparency and the public assurance 
necessary--for program legitimacy. Remarkably, sources have registered 
nearly 100 percent compliance.
    Because of the unprecedented success of the Acid Rain Program, it 
has served as the model for numerous additional programs to reduce 
emissions cost-effectively in this country and around the world, 
including the President's recently proposed Clear Skies Act, which I 
discuss in some detail below.

Meeting Health-Based Air Quality Standards

Overview
    The air in our nation is considerably cleaner than in 1990. Under 
the Act, EPA has set health-based national ambient air quality 
standards (NAAQS) for six common pollutants. Nationally, the 2000 
average air quality levels were the best in the last 20 years for all 
six pollutants--lead, nitrogen dioxide, sulfur dioxide, particulate 
matter, carbon monoxide and ozone.
    Since 1990, an unprecedented number of cities have met the health-
based national ambient air quality standards. In fact, more than two-
thirds of the areas designated as nonattainment following the 1990 
amendments now have air quality meeting those standards based on 1998-
2000 data, including:
    <bullet> 41 of the 43 carbon monoxide areas
    <bullet> 69 of the 85 coarse particulate matter (PM-10) areas
    <bullet> 71 of the 101 ozone areas (one-hour standard)
    While air quality improved, the economy showed robust economic 
growth, increasing 37 percent between 1990 and 2000.
    In 1997, based on updated scientific information, EPA set a new 
standard for fine particles (PM2.5) and a revised, 8-hour standard for 
ozone that is more stringent than the one hour standard. We have made 
great progress working with States to get monitoring systems in place 
for PM2.5. Many areas across the eastern U.S. and in California appear 
to have pollution levels exceeding the 1997 standards.
    For the other common pollutants, only a few areas remain in 
nonattainment. The remaining lead and sulfur dioxide nonattainment 
areas in the country are the result of localized point sources for 
which action on an individual basis is being taken. Since 1998, all 
cities have met the air quality standard for nitrogen dioxide.
Ongoing Work To Combat Ozone Pollution
    The Clean Air Act gives States the primary responsibility for 
meeting national air quality standards by developing and implementing 
State implementation plans (SIPS). EPA assists States by providing 
guidance, setting national emissions limits for sources such as motor 
vehicles, and requiring control of upwind sources that contribute to 
dowmwind problems in other States.
    During the past two years we have reached a major milestone in 
cleaning up smog in many of our nation's largest cities. In the 
Northeast, Midwest and South, States have completed plans for attaining 
the 1-hour ozone standard in all of the metropolitan areas that have 
pollution levels considered serious or severe under the Act.
    Interstate transport of ozone and NOx, an ozone precursor, is a 
major contributor to the ozone nonattainment problems across the 
eastern U.S. No State can solve this problem on its own.
    As a result, EPA has issued two complementary rules--the NOx SIP 
Call and the Section 126 rule--in a combined Federal/State action to 
reduce interstate ozone transport. The effect of the two rules together 
is to require NOx reductions in 19 States and the District of Columbia. 
EPA anticipates that full implementation of these rules will reduce 
total ozone-season NOx emissions from power plants and large industrial 
sources by approximately one million tons by the 2007 ozone season. 
This is essential for many of the remaining ozone nonattainment areas 
to meet the one-hour standard, and will greatly reduce the number of 
areas exceeding the more stringent 8-hour standard.
    The NOx SIP Call, which sets emissions budgets for States, and the 
Section 126 rule, which applies directly to power plants and large 
industrial sources, both allow for implementation through a market-
based cap-and-trade program that allows facilities to choose the most 
cost-effective means of reducing their pollution. All of the States 
subject to the NOx SIP Call plan to use the cap-and-trade approach.
    EPA's reliance on existing CAA authorities for addressing ozone 
transport is working, but three major lawsuits by some States and 
corporations have delayed implementation. EPA issued the original NOx 
SIP call rule in 1998. Both the SIP Call and the subsequent Section 126 
Rule set a May 2003 compliance date. However, one court ruling delayed 
the NOx SIP call compliance date until May 31, 2004. A second court 
ruling stopped the compliance clock for electricity generators subject 
to the Section 126 Rule while EPA responded to concerns the court 
raised with heat input (fossil-fuel-use) projections for electricity 
generators, which EPA used in calculating emissions budgets for the two 
rules. As a result, the two rules were no longer synchronized.
    Administrator Whitman on April 23 signed a rule setting the Section 
126 compliance date as May 31, 2004--once again harmonizing the 
compliance dates. This will facilitate withdrawal of the Federal 
Section 126 program in States that meet the requirements of the SIP 
Call Rule, and help to avoid potential overlap of the two programs. The 
Administrator also signed a notice that explains EPA's decision to 
retain the original heat input projections. In a separate action, EPA 
recently issued a proposed ``phase II'' rule responding to other issues 
from court decisions on the SIP call and Section 126 rules.

Cutting Transportation Emissions

    In general, transportation sources contribute roughly half of the 
overall pollution in our air. The contribution, however, can vary 
significantly--from pollutant to pollutant and from city to city. Note 
that when I refer to transportation sources I mean all highway motor 
vehicles as well as diverse types of off-road vehicles and engines. 
They are major sources of four pollutants, contributing 56 percent of 
the total U.S. emissions of NOx, 77 percent of CO, 47 percent of VOCs, 
and 25 percent of the PM.
Cleaner Vehicles
    Cars being built today are well over 90 percent cleaner than cars 
built in 1970. This is a result of a series of emission control 
programs implemented by EPA through nationally applicable regulations. 
Since the first tailpipe standards took effect in the 1970's, there 
have been increasingly more stringent standards; most recently Tier 1 
in the mid-90's; the National Low Emission Vehicle (NLEV) Program, 
which is in effect today; and Tier 2 standards set to take effect 
beginning with the 2004 model year. In the Tier 2 standards and most 
other national vehicles and fuels rules issued since 1990, EPA has 
provided compliance flexibility through emissions averaging and trading 
systems.
    Tier 2 will take a major step toward reconciling passenger vehicles 
with clean air. For the first time it holds SUVs, minivans and pick-up 
trucks to the same emission requirements as autos. Tier 2 is also fuel 
neutral, which means that gasoline, diesel and alternative fueled 
vehicles all must meet the same set of standards. Tier 2 is cost 
effective and its benefits to public health are large--by 2020, over 
two million tons of NOx emissions avoided per year, 4,000 premature 
deaths prevented annually and tens of thousands of respiratory 
illnesses prevented.
    Most large trucks and buses are powered by diesel engines. They can 
emit high levels of NOx and PM. Although cars were regulated first, 
diesel truck and bus manufacturers have had to comply with a series of 
increasingly more stringent standards beginning in the late 1980's. 
This Administration has affirmed and is supporting a major new program 
that has recently been established to protect public health and the 
environment while ensuring that diesel trucks and buses remain a viable 
and important part of the Nation's economy. Called the Clean Diesel 
Program, it begins in 2007, when the makers of diesel engines will for 
the first time install devices like catalytic converters on new trucks 
and buses to meet the emission performance standards. The environmental 
benefits of this program will be substantial. When these cleaner 
vehicles have replaced the current fleet, 2.6 million tons of NOx 
emissions will be avoided every year, 8,000 premature deaths prevented 
annually, and 23,000 cases of bronchitis and 360,000 asthma attacks. 
These health benefits far outweigh the cost to produce the cleaner 
engines and fuels.
    The Clean Diesel Program will reduce emissions only from newly 
produced engines. But there are millions of older diesel trucks, buses 
and off-road equipment in use today, many of which spew noxious, black 
soot from their exhaust pipes. EPA has therefore initiated, in 
cooperation with manufacturers of diesel emission control systems, a 
major new voluntary initiative to install cost effective emission 
control equipment on older diesels. Through this innovative program, 
the Diesel Retrofit Program, the Agency to date has obtained 
commitments from businesses and municipalities that own fleets of 
trucks or buses to retrofit 85,000 vehicles with devices that will 
reduce exhaust emissions.
    Of course, motorists share responsibility to maintain their 
vehicles properly. Inspection and maintenance (I/M) programs, currently 
operating in 56 metropolitan areas, are meant to identify polluting 
vehicles and lead to their repair. Today many States are re-structuring 
their I/M programs to efficiently incorporate the capabilities of so-
called ``onboard diagnostic (OBD) systems'' that use the vehicle's 
onboard computer to speed the testing process, provide specific 
information to the technician to help get repairs done correctly, and 
maintain or improve the air quality benefits of an I/M program.
Cleaner Fuels
    Let me now switch from cleaner vehicles to cleaner fuels. The first 
effort to address an environmental problem linked to fuel was the 
multi-year effort to phase down and eventually eliminate lead in 
gasoline. That successful action was followed by other programs to 
require oil refiners to produce cleaner gasoline. In the late 1980's 
refiners began to reduce the evaporation rate of gasoline nationwide 
during the summer months.
    The 1990 amendments to the Clean Air Act established several new 
clean fuel programs. Much of the nation's progress on carbon monoxide 
can be attributed to the wintertime oxygenated fuels program, which 
began in 1992 in 30 cities. The 1990 amendments also established the 
reformulated gasoline (RFG) program, which was designed to serve 
several goals, including improving air quality and extending the 
gasoline supply through the use of oxygenates. Today, roughly 35 
percent of this country's gasoline consumption is cleaner-burning RFG. 
The emission reductions which can be attributed to the RFG program are 
equivalent to taking 16 million cars off the road.
    In two of the programs I mentioned earlier, Tier 2 and the 2007 
Clean Diesel Program. EPA recognized the efficiencies of addressing 
vehicles and fuels as a system when establishing an emissions control 
program. Thus, in addition to setting strict exhaust emission standards 
for the vehicles and engines, we also required that cleaner, low sulfur 
gasoline and diesel fuel be available to enable those emission 
standards to be achieved. Sulfur is similar to lead in that it degrades 
the effectiveness of a catalytic converter. This lower sulfur gasoline 
will reduce emissions from all gasoline-powered highway vehicles, not 
just those meeting the tighter vehicle emissions standards. The Tier 2 
and diesel regulations provide sufficient time for refiners to make the 
necessary modifications to their facilities before the low sulfur fuel 
is required. EPA has included a number of provisions that provide 
additional flexibility to refiners, particularly small refiners.
Off-Road Engines
    As emissions from highway vehicles are reduced, the potential for 
reductions from other sources must be evaluated. Therefore. in 1990 
Congress gave EPA new authority to set emission limits for off-road 
engines and equipment. As a result, EPA has adopted emission control 
programs for the following off-road equipment: locomotives, marine 
vessels, outboard recreational boats, and small gasoline engines used 
in lawn and garden equipment.
    The next major category of mobile source emissions to be addressed 
is large diesel engines used in construction, mining, airport and 
agricultural equipment. Even though modest emission requirements are in 
place for this equipment, EPA currently estimates that by 2020 the 
category will contribute over 10 percent of the total NOx emissions 
inventory in a typical metropolitan area and 8 percent of the PM 
emissions. We believe taking steps to reduce emissions from these 
sources can be done cost effectively and provide significant public 
health and welfare benefits.
    We are currently working with industry, State, public health 
organizations, and other stakeholders in developing a proposal. An 
important issue for consideration is the potential need to lower the 
sulfur levels in off-road diesel fuel to enable new exhaust control 
technology to be utilized on future engines. As we found with highway 
vehicles, this approach of comprehensively looking at the engines and 
fuel as a system is appropriate here as well. As an initial baseline 
for possible control strategies, we are using the standards for both 
engines and diesel sulfur level that were adopted as part of the 
highway diesel program. We are also analyzing emission credit trading 
program options and compliance flexibilities for small businesses, 
among other things. Additionally, EPA and OMB are working 
collaboratively on this rule as OMB shares our concern about the health 
effects of diesel emissions and the need to develop a strong rule to 
reduce emissions from off-road engines. We believe this collaboration 
will allow a more expedited rulemaking process. The EPA Administrator 
will, however, be the decision maker with respect to this rule, and 
retains sole authority to make final decisions about the content of the 
proposed and Final regulations.
    EPA is also working to help communities address vehicle emissions 
on a voluntary, nonregulatory basis. A new business-government 
partnership, called the Commuter Choice Leadership Initiative, focuses 
on reducing vehicle emissions and improving the way people get to and 
from work. EPA and DOT assist participating employers by offering 
technical assistance, public recognition, training, Web-based tools, 
and forums for information exchange. To participate, employers make a 
series of commitments, including ensuring a minimum level of employee 
participation and offering a series of commuter benefits. In return for 
offering these benefits, employers can reap the important benefits of 
helping to attract and retain employees, reduce the demand for limited 
or expensive parking, and exhibit leadership and corporate citizenship. 
Almost 300 companies, employing over 750,000 people, have joined the 
program since it was launched last year.

Protecting the Stratospheric Ozone Layer

    EPA's Stratospheric Ozone Protection Program has played a landmark 
role in addressing one of the most pressing environmental issues of our 
time--the depletion of the ozone layer. We can say with certainty and 
pride that our effort in the U.S. to protect the ozone layer is on 
track toward unqualified success. With the successful worldwide 
phaseout of ozone depleting substances, EPA estimates that 6.3 million 
U.S. lives will have been saved from fatal cases of skin cancer between 
1990 and 2165, and that up to 300 million cases on non-fatal skin 
cancer and approximately 30 million incidences of cataracts will have 
been avoided.
    To date, international cooperation to implement the Montreal 
Protocol on Substances that Deplete the Ozone Layer has led to global 
reductions in the production and use of ozone depleting substances 
(ODS), the results of which we can already see. Developed country 
production of CFCs, methyl chloroform, and carbon tetrachloride 
essentially ended, except for limited exemptions permitted under the 
Montreal Protocol, thus avoiding emissions of 400,000 metric tons of 
ODS. Developing countries as a whole are ahead of schedule in reducing 
their production, use, and emissions of ODS.
    If the world community stays the course, we can expect to see the 
ozone layer recover in approximately 50 years. The prospect of 
identifying and solving a global environmental problem of this 
magnitude, within the span of a single lifetime, is nothing short of 
amazing. Let me tell you about the success we have had here and abroad.
    Here at home, the U.S. is doing its part to ensure the recovery of 
the ozone layer. Working closely with industry, EPA has used a 
combination of regulatory, market based (i.e., a cap-and-trade system 
among manufacturers), and voluntary approaches to phase out the most 
harmful ozone depleting substances (ODS). And we're doing so more 
efficiently than either EPA or industry originally anticipated. The ODS 
phaseout for Class I substances was implemented 4-6 years faster, 
included 13 more chemicals, and cost 30 percent less than was predicted 
at the time the 1990 Clean Air Act Amendments were enacted.
    The U.S. has not only ``taken care of business'' at home but has 
also played a key leadership role internationally. Through the 
Multilateral Fund set up under Presidents Reagan and Bush, the U.S. has 
led the effort toward long term agreements to dismantle more than two-
thirds of developing country CFC production capacity and eliminate 
virtually all of developing country halon production capacity. Sales of 
U.S. technologies, such as recycling, air conditioning, and 
refrigeration equipment and about $80 million per year of sales of 
alternatives to ozone depleting substances have played an important 
role in this worldwide progress. While the final closing of related 
facilities depends on continued funding, we are confident that through 
continued U.S. involvement and investment in this area we will be able 
to fulfill our international obligations and keep recovery of the ozone 
layer within our sights.
    With continued worldwide vigilance, full recovery of the ozone 
layer is predicted to occur in 50 years. In the near term, however, 
exposure to UV radiation and the subsequent health effects of increased 
incidences of skin cancer and cataracts continues to be a very real 
problem. One American dies every hour from skin cancer and a mere one 
to two blistering sunburns can double one's chances of developing 
melanoma later on in life. With this knowledge, EPA created the SunWise 
Schools Program to teach children and their caregivers about sun 
safety. EPA expects to reach children in 17,000 U.S. schools by 2005.
    We are proud of these achievements, but the job is not yet done. We 
have important work ahead of us such as the upcoming domestic phase 
outs of chemicals like methyl bromide (MBr) and hydrochloroflurocarbons 
(HCFC) while ensuring that sufficient amounts are available for 
critical and essential uses. The budget includes $10 million in EPA 
funding to help replenish the multilateral fund. Without a mechanism 
for facilitating developing country commitments to phaseout ozone 
depleting substances, we jeopardize recovery of the ozone layer. 
investments already made by U.S. industry in alternative technologies, 
and indeed the lives and health of Americans.

Reducing Risks From Air Toxics

    Toxic air pollutants are pollutants known or suspected to present a 
threat of adverse human health effects such as cancer or birth defects, 
or adverse environmental effects. In order to control emissions of 
these pollutants, EPA since 1990 has issued 63 pollution standards 
affecting 105 industrial categories such as chemical plants, dry 
cleaners, coke ovens, and petroleum refineries. When fully implemented, 
these standards will eliminate nearly 1.5 million tons of air toxics 
and 2.5 million tons of particulate matter and smog-causing volatile 
organic compounds.
    By contrast, in the preceding twenty years only seven hazardous air 
pollutant standards, eliminating 125,000 tons of toxics, had been put 
in place. In 1990, Congress directed EPA to issue technology- and 
performance-based standards on a source category basis to ensure that 
major sources of air toxics are well controlled. In essence these 
standards create a level playing field by requiring all major sources 
to achieve the level of control already being achieved by the better 
performing sources in each category.
    The result is that we are reducing the large quantities of toxic 
air pollutants released into our air, in the aggregate and around 
industrial sources in populated areas. We will achieve additional 
reductions as we complete standards for more categories of major 
pollution sources. This approach is achieving substantial reductions in 
air toxics, but we recognize that it is not perfect; a drawback is that 
it focuses on the quantity of emissions while toxic pollutants vary 
substantially in the risk they pose. Congress gave EPA greater 
flexibility to target the greatest risks in the second phase of the air 
toxics program outlined in the 1990 amendments.
    We are now in the early stages of implementing this second phase of 
the air toxics program, targeting particular problems such as elevated 
risks in urban areas, deposition of air toxics into the Great Lakes, 
and residual risks from already controlled sources. The underlying goal 
of this program is to improve air quality at the local, regional, and 
national levels while minimizing cost and reducing unnecessary burden 
on States and the regulated community. Achievement of this goal would 
ultimately result in reduced public risk from exposure to air toxics or 
other environmental threats.
    Virtually all of the transportation-related control programs I 
discussed earlier reduce toxic emissions as well as emissions of NAAQS 
pollutants or their precursors. For example, compared to 1990 levels, 
the programs we have in place today for highway vehicles, including 
Tier 2 and the 2007 diesel rule, will reduce emissions of four gaseous 
toxic pollutants by about 350,000 tons by 2020, a 75 percent reduction. 
Diesel particulate matter (PM) from highway vehicles will be reduced by 
220,000 tons over the same time frame, for a 94 percent reduction.

Improving Visibility in our National Parks and Wilderness Areas

    Having lived a good portion of my life within sight of the Front 
Range, within an hour of Rocky Mountain National Park, I have a 
personal appreciation for the importance of protecting the beautiful 
vistas of our great land from visibility degradation. Haze, created by 
fine particles and other pollutants, often degrades visibility across 
broad regions and obscures views in our best known and most treasured 
natural areas such as the Grand Canyon, Yosemite, Yellowstone, Mount 
Rainier, Shenandoah, the Great Smokies, Acadia, and the Everglades. 
Despite improvements in recent years in some areas, visibility remains 
significantly impaired. In eastern parks, average visual range has 
decreased from 90 miles (natural conditions) to 15-25 miles, and on 
some days, visibility is less than 10 miles. In the West, visual range 
has decreased from 140 miles to 35-90 miles. Visibility for the worst 
days in the West is similar to days with the best visibility in the 
East.
    In July 1999, EPA published a long awaited regional haze rule that 
calls for long-term protection of and improvement in visibility in 156 
national parks and wilderness areas across the country. Because haze is 
a regional problem, EPA has encouraged States and tribes to work 
together in multi-state planning organizations to develop potential 
regional strategies for the future. Five of these regional planning 
organizations are no1A operational. EPA will be working closely with 
these organizations to provide guidance during this process, just as it 
did with the many States and tribes involved in the Grand Canyon 
Visibility Transport Commission.
    Over the next several years, States are required to establish goals 
for improving visibility in each of these 156 areas and adopt emission 
reduction strategies for the period extending to 2018. States have 
flexibility to set these goals based upon certain factors, but as part 
of the process. they must consider the rate of progress needed to reach 
natural visibility conditions in 60 years. To assist in evaluating 
regional strategies and tracking progress over time, we have continued 
to work with the States and Federal land managers to expand our 
visibility and fine particle monitoring network to 110 of these areas.
    One of these regional planning organizations is the Western 
Regional Air Partnership, or WRAP. The regional haze rule specifically 
takes into account the WRAP's efforts to develop and carry out a 
strategy, for improving visibility in 16 scenic areas in the western 
U.S. Currently, EPA is proposing to approve, and to incorporate into 
the regional haze rule, an element of this strategy that addresses 
stationary sources of sulfur dioxide. The WRAP's innovative approach 
establishes regional sulfur dioxide emissions targets, gives Western 
sources the opportunity to meet these targets through voluntary 
measures, and provides for an enforceable backstop emissions trading 
program that will ensure that the targets are met if the voluntary 
measures do not succeed.
    EPA is moving forward to carry out the CAA requirements for ``best 
available retrofit technology,'' or BART, at certain older facilities 
that have been grandfathered from new source requirements under the 
Act. These older facilities emit large amounts, in the millions of 
tons, of visibility-impairing pollutants. For many, cost-effective 
control measures are available. EPA was disappointed with a May 24, 
2002, court ruling by the D.C. Circuit which questioned some of the 
BART requirements in the 1999 regional haze rule. We are asking for re-
hearing of this decision, and we are actively pursuing options in the 
event that re-hearing is not granted, or if EPA does not prevail upon 
re-hearing. Implementation of the BART requirement may require us to 
re-propose the BART requirement, and to re-propose guidelines for 
States to follow in identifying BART sources and controls. EPA intends 
to publish whatever rule changes are needed to carry--out this 
important requirement of the Act.
                        iii. today's challenges
    As the preceding discussion shows, the Clean Air Act has an 
impressive track record, showing progress on nearly all fronts 
addressed by the 1970 Act and its subsequent amendments. Even so, some 
serious challenges remain. I will discuss the most significant of these 
challenges, including fine particle and ozone pollution, environmental 
concerns such as acid and nitrogen deposition, and toxic air pollution.

Reducing Fine Particles and Smog

    Two of the greatest air quality challenges facing us today are 
reducing levels of fine particles and ground-level ozone (smog) to meet 
the more health protective air quality standards EPA issued in 1997 
based on an exhaustive review of new scientific evidence on effects of 
these pollutants. Fine particles and 8-hour ozone levels appear to be 
of concern in many areas of California and across broad regions of the 
eastern U.S.
    On March 26, after years of litigation and a favorable Supreme 
Court decision, the U.S. Court of Appeals for the D.C. Circuit rejected 
all remaining legal challenges to both standards. The Administration 
vigorously defended the standards before the court.
    As Administrator Whitman said, the court decision ``is a 
significant victory in EPA's ongoing efforts to protect the health of 
millions of Americans from the dangers of air pollution. EPA now has a 
clear path to move forward to ensure that all Americans can breathe 
cleaner air.'' Now EPA will work in partnership with State, tribal and 
local governments to implement those standards.
    We believe that fine particles pose the greatest public health 
risks of any regulated air pollutant. Fine particles are associated 
with tens of thousands of premature deaths per year in people with 
heart and lung diseases. Fine particles aggravate heart and lung 
disease, leading to increased hospitalizations, emergency room and 
doctor visits, use of medication, and many days of missed school and 
work. Fine particles have also been associated with respiratory 
symptoms such as couching and wheezing and chronic bronchitis, as well 
as heart beat irregularities and heart attacks. And tine particles are 
a year-round problem.
    Over the last 5 years, EPA has invested over a quarter billion 
dollars into research on the health effects of PM and the development 
of cost-effective implementation strategies to meet the PM standards. 
In doing this, we have listed carefully to the advice an expert panel 
of the National Academy of Sciences and have coordinated our approach 
with Federal and non-Federal partners.
    Ozone smog also is a significant health concern, particularly for 
children and people with asthma and other respiratory diseases who are 
active outdoors in the summertime. Ozone can cause increased transient 
respiratory symptoms, such as coughing and pain when breathing deeply, 
as well as transient reductions in lung function and inflammation of 
the lung. Ozone has also been associated with increased 
hospitalizations and emergency room visits for respiratory causes. 
Repeated exposure over time may permanently damage lung tissue.
    We are determined to move expeditiously to achieve the health 
benefits of the standards. However, there is some preliminary work that 
must be completed before we can designate areas under the new 
standards, which starts the clock on many implementation requirements.
    Before the PM2.5 nonattainment areas can be designated, three years 
of data are needed to determine whether an area is not attaining the 
standard. We have 3 years of quality-assured data that will soon be 
sent to the States. It is difficult to project a precise schedule for 
designating PM2.5 nonattainment areas, but I have asked my staff to 
determine how we can move forward expeditiously in light of the public 
health threat posed by tine particles. The Transportation Equity Act of 
1998 requires States and EPA complete the process within two years 
after three years of monitoring data are available, or no later than 
December 31, 2005. Based on a preliminary two-year data set from 250 
counties, more than 130 areas are expected to violate the annual 
standard. About 100 of these areas also appear to be not attaining the 
8-hour ozone standard, and it will make sense for States to consider 
both ozone and PM in devising attainment strategies.
    As we work with the States on PM2.5 designations, we also will be 
working with our governmental partners and stakeholders to develop an 
implementation strategy. In the East, high PM2.5 levels are attributed 
to regionally high sulfate and nitrate concentrations (primarily from 
power plants and motor vehicles) combined with local urban emissions of 
other pollutants. President Bush's proposed Clear Skies Act (discussed 
in more detail below), which would cut emissions from power generators 
through a cap-and-trade program, would substantially reduce the number 
of areas with unhealthy levels of fine particles. Regional strategies 
and or national rules should be the first step toward addressing 
sulfates and nitrates, particularly in the East. A number of already-
adopted mobile source programs, such as Tier 11 standards for cars and 
light trucks, reduced sulfur in fuel, and standards for new heavy duty 
diesel engines, will also help reduce local emissions. However, 
additional local strategies will need to be developed for certain 
cities to address their particular mix of emissions sources also 
contributing to the problem. For example, a diesel engine retrofit 
program (e.g. for buses) appears to be one obvious local action that 
cities can take to protect the public from PM2.5 health effects now.
8-Hour Ozone
    We are actively working on several fronts to prepare the way for 
implementation of the 8hour ozone standard. Because the Supreme Court 
ruled that EPA's original implementation strategy was unlawful, EPA is 
working with State and stakeholders to develop a new approach that will 
be adopted through rulemaking. The new approach will be proposed this 
summer and finalized a year after its proposal. We also are working to 
complete our response to the May 1999 remand from D.C. Circuit 
concerning UVB radiation, and anticipate a final rule this year. EPA 
plans to designate areas for the 8-hour ozone standard no earlier than 
the end of 2003.
    There are over 300 counties measuring exceedances of the 8-hour 
ozone standard. Existing EPA programs, including national motor vehicle 
programs and the NOx SIP call, are projected to help many of the new 
nonattainment areas meet the standard over the next few years. States 
and localities also will need to do their part to reduce emissions from 
local pollution sources.

Protecting Our Environment and Resources

    The same emissions that form fine particles and ozone, causing 
public health risks, also contribute to environmental and resource 
damage. One example is visibility degradation, which I already have 
discussed.
    In addition, modeling results and recent studies of ecological 
response to emissions reductions under the Acid Rain Program indicate 
that Title IV is moving us in the right direction, but not far enough. 
For example, scientists in the Shenandoah National Park discovered the 
first observed disappearance of a fish population due to acidification. 
Researchers in that region claim that reductions of sulfate deposition 
of 70 percent or greater from 1991 levels are necessary to prevent 
further acidification of Virginia brook trout streams.
    A recent assessment of acid deposition and its effects in the 
northeast by the Hubbard Brook Research Foundation reflects a similar 
finding. Researchers found no significant improvement in lake and 
stream water quality in the Adirondack and Catskill Mountains, even 
following recent decreases in acid rain. The study concluded that full 
implementation of the 1990 Amendments will not result in substantial 
recovery in acid-sensitive ecosystems in the northeast. Instead, it 
concluded that further reductions of SO<INF>2</INF> emissions from 
power generation are necessary to achieve recovery of aquatic 
ecosystems in this region.
    Recent studies also demonstrate that nitrogen deposition is an 
increasing concern in many regions of the country. For example, EPA's 
recently released national coastal condition report found deteriorating 
water quality in many areas of the eastern U.S. and Gulf Coasts, much 
of it due to increasing nitrogen pollution. Other researchers have 
found symptoms of ``nitrogen saturation'' in forest ecosystems in 
diverse areas of the country, including the Front Range of the Colorado 
Rockies, forests in southern California, and forests along the 
Appalachian Mountain chain of the eastern U.S. As a result, forest 
soils lose nutrients, forests are less productive, and streams and 
lakes continue to get more acidic.
    Taking into consideration the ongoing concern about acid 
deposition, President Bush's Clear Skies Act would address these 
problems by cutting emissions of S0<INF>2</INF> and NOx from power 
generators through a cap-and-trade program. This program is outlined 
briefly in the next section below.

Air Toxics Challenges

    Two important air toxics challenges are elevated risks from the 
multiple toxic pollutants emitted into urban airsheds, and health risks 
from mercury, a persistent toxic substance that accumulates in the food 
chain.
Urban Air Toxics Strategy
    Air toxics can pose special threats in urban areas because of the 
large number of people and the variety of sources of toxic air 
pollutants. Individually, some of these sources may not emit large 
amounts of toxic pollutants. However, all of these pollution sources 
combined can potentially pose significant health threats. Under the 
Clean Air Act, EPA is required to develop an Integrated Urban Air 
Toxics Strategy that addresses air toxics in urban areas, looking 
collectively at emissions from large and small industrial and 
commercial operations, on-road and off-road vehicles, as well as indoor 
air sources. We are also concerned about the impact of the toxic 
emissions on minority and low income communities. which are often 
located close to industrial and commercial urbanized areas.
    We will also assist State, local. and tribal agencies in making 
their own assessments and decisions on risk strategies by providing 
them tools, guidance, and training, while continuing to develop 
national standards. We are also exploring new approaches for 
identifying flexible, less expensive methods for reducing emissions. In 
addition, to better understand local risk, we will collect and analyze 
data from on-going community projects to provide a centralized 
information database. We will also continue to participate in projects 
such as in Cleveland, Ohio. This integrated approach will allow EPA and 
State, local, and tribal governments the ability to cooperatively 
address specific risks and administer direct and cost efficient 
controls in specific ``hot spots'' or target areas.
Mercury
    Mercury is a potent toxin that causes permanent damage to the brain 
and nervous system, particularly in developing fetuses, depending on 
the level of ingestion. Most exposure comes through eating contaminated 
fish. Currently 42 States have advisories warning people to limit or 
avoid intake of recreationally caught fish due to mercury 
contamination. Even so, almost 400,000 children are born each year to 
mothers whose blood mercury levels exceed the reference dose 
established by EPA, which builds in a margin of safety.
    Recent actions to reduce mercury emissions from medical waste 
incinerators and municipal waste combustors are significantly reducing 
emissions of mercury. In fact, full implementation and compliance with 
medical waste incinerator and municipal waste combustor regulations 
will result in significant mercury emission reductions from these 
important sources. Power generation is now the largest uncontrolled 
source of mercury emissions, contributing approximately 35 percent of 
the total anthropogenic mercury, emissions in this country. As 
discussed below, President Bush's Clear Skies Initiative would put a 
cap on mercury emissions from power generators.
                        iv. future improvements
    To meet the continuing challenge of providing healthy air 
efficiently and cost-effectively, EPA is working to improve clean air 
regulation in several ways. First, as mentioned above. EPA is 
developing an off-road rule to reduce emissions from heavy equipment, 
such as construction equipment. Second, EPA and the Administration, 
building on the success of the acid rain program, have developed the 
proposed Clear Skies Act to reduce three key pollutants from power 
plants by 70 percent. Third, EPA is working on improvements to the NSR 
program to make the program work more efficiently and provide 
environmental benefits. I have already discussed the off-road rule 
earlier in this testimony. I will now summarize the status of our 
efforts on Clear Skies and New Source Review.
    Clear Skies The major legislative initiative we are proposing to 
help address the nation's remaining clean-air challenges is the Clear 
Skies Initiative, which would set strict, mandatory caps to drastically 
reduce emissions of three harmful air pollutants from the electric 
power sector: sulfur dioxide (SO<INF>2</INF>), nitrogen oxide (NOx), 
and mercury (Hg). Announced by President Bush on February 14th of this 
year, the proposal was introduced in the Senate as the Clear Skies Act 
by Senator Bob Smith in late July. Unlike other bills on this issue, 
the Clear Skies Act is a complete package that could be enacted 
immediately upon passage by Congress. If enacted, it will be the most 
significant improvement to the Clean Air Act in more than a decade.
    To continue our significant improvement in air quality over the 
past twenty years, we need to take the next step in reducing 
SO<INF>2</INF>, NOx, and mercury. The power sector is a primary source 
of these pollutants, contributing 63 percent of SO<INF>2</INF> 
emissions and 22 percent of NOx emissions in 2000, and 3 percent of 
man-made mercury emissions in 1999. Clear Skies would reduce emissions 
by an additional 70 percent from today's levels to dramatically improve 
air quality, and public health across the nation. Clear Skies would 
ensure that environmental goals are achieved and sustained over the 
long term, even while energy use increases.
    Implementation of the Clear Skies Act would significantly mitigate 
our nation's major air pollution related health and environmental 
problems. SO<INF>2</INF> and NOx emissions react in the atmosphere to 
form nitrates and sulfates, a substantial fraction of fine particle 
pollution. These reductions in fine particles would make great strides 
to prevent incidences of premature mortality, aggravation of 
respiratory and cardiopulmonary illnesses, and diminished lung 
function. Americans would experience fewer lost work days, school 
absences, hospitalizations and emergency room visits. These emission 
reductions would also improve visibility in national parks and 
wilderness areas and alleviate damage to ecosystems, fish and other 
wildlife. NOx is also a key contributor to the formation of ground-
level ozone, and the NOx reductions from the Clear Skies Act would 
contribute significantly to attainment of the National Ambient Air 
Quality Standards for ozone and provide corresponding public health 
benefits.
    EPA's modeling shows that nationwide reductions of these three 
harmful pollutants will have striking results. Every part of the 
country where power plants contribute significantly to air pollution, 
most notably the Northeast, Southeast, and Midwest, would see vast 
improvements in air quality. Clear Skies, by dramatically reducing 
polluting emissions from power generators, would be the most 
significant improvement to the Clean Air Act since 1990, and one of the 
most comprehensive and ambitious efforts ever to clean up air pollution 
from power plants.
Public Health Benefits of Clear Skies
    The Clear Skies Act is projected to achieve tremendous public 
health benefits. Concentrations of fine particles, a major cause of 
human health impacts from power plants, would decrease by more than 20 
percent from current levels in large areas of the East and Midwest. The 
Clear Skies Act would achieve its fullest measure of benefits in the 
year 2020, but it would also bring significant early benefits in 2010. 
Although placing a dollar value on improvements in human health is 
challenging, our best estimate for the annual benefits from Clear Skies 
is as follows:
    <bullet> Total economic benefits in 2010 would be approximately $44 
billion--$43 billion in health benefits and $1 billion in visibility 
benefits. (An alternative estimate, using different assumptions, would 
result in approximately $5 billion in health benefits in 2010.)
    <bullet> By 2010, Clear Skies would prevent approximately 6,000 
premature deaths annually. (An alternative estimate, using different 
assumptions, would result in approximately 3,800 premature deaths 
prevented annually in 2010.)
    <bullet> Total economic benefits in 2020 would be approximately $96 
billion--$93 billion in health benefits and $3 billion in visibility 
benefits. (An alternative estimate, using different assumptions, would 
result in approximately $11 billion in health benefits in 2020.)
    <bullet> By 2020, Clear Skies would prevent approximately 12,000 
premature deaths annually. (An alternative estimate, using different 
assumptions, would result in approximately 7,000 premature deaths 
prevented annually in 2020.)
    These health and visibility benefits, totaling nearly $100 billion 
annually, far outweigh the estimated $6.5 billion dollar cost of the 
program. Even under an alternative estimate, which values the health 
and visibility benefits of Clear Skies at approximately $14 billion per 
year in 2020, the benefits substantially outweigh the costs. Additional 
health and environmental benefits cannot currently be quantified or 
monetized due to gaps in scientific capabilities. Nevertheless these 
benefits, such as reduced human exposure to mercury and fewer acidified 
lakes, are expected to be significant and to increase the total 
benefits of the Clear Skies Act.
    The Clear Skies Act would help areas populated by tens of millions 
of people to meet the national requirements for healthy air in 2020. 
Compared with the situation where existing Clean Air Act regulations 
are implemented (and no new State or Federal regulations are adopted), 
Clear Skies would bring more than 50 additional counties--home to 
approximately 21 million people--into attainment with the annual fine 
particle standard. Similarly, 8 additional counties, home to 4 million 
people, would come into attainment with the 8-hour ozone standard.
    There would also be substantial environmental benefits under the 
Clear Skies Act by 2020. Compared to current conditions, the Clear 
Skies Act would deliver the following benefits (in conjunction with 
existing Clean Air Act regulations):
    <bullet> improve visibility in a large portion of the East and 
Midwest by 2-3 deciviews from current levels (a one deciview change 
translates to a noticeable change in visibility for most individuals);
    <bullet> improve visibility by more than 3 deciviews in areas of 
the southern Appalachian Mountains (e.g. Great Smoky Mountain National 
Park);
    <bullet> reduce sulfur deposition (one component of acid 
deposition) over much of the sensitive eastern U.S. by 30-60 percent;
    <bullet> reduce nitrogen deposition (the other component of acid 
deposition) over much of the eastern U.S., including sensitive forests 
and coastal areas, by 60 percent or more:
    <bullet> virtually eliminate the problem of chronic acidification 
in lakes in the Adirondack mountains of northern New York;
    <bullet> reduce Americans' risk of exposure to mercury by 
substantially decreasing mercury deposition.
    The Clear Skies Act is designed to encourage early emissions 
reductions. Under the Clear Skies Act, over the next decade we would 
achieve significant S0<INF>2</INF> and NOx emissions reductions that we 
do not anticipate achieving under the current Clean Air Act. As a 
result, by 2010, Clear Skies is projected to result annually in 6,000 
fewer premature deaths and 8 million fewer days when--Americans suffer 
from respiratory-related symptoms.
    These early reductions would also accelerate the implementation of 
our national healthbased air quality standards for tine particles and 
ozone. The Clear Skies Act would result in a substantial number of 
counties meeting the fine particle and 8-hour ozone standards sooner 
than they would under the existing Clean Air Act.
Certainty of Environmental Progress
    Clear Skies closely follows the approach used in one of America's 
most effective clean air programs, the 1990 Clean Air Act's Acid Rain 
Program, which I discussed earlier in this testimony. As a recent 
article in Fortune Magazine stated, ``the success of the SO<INF>2</INF> 
program has convinced almost everyone that trading can be a useful 
environmental policy.'' (``Hog Wild for Pollution Trading: Why 
Environmental Markets Are Becoming a Very Big Deal'', Fortune, 
September 2, 2002.) The results of the SO<INF>2</INF> cap and trade 
program have been dramatic--and unprecedented. Compliance began in 1995 
and is now in its eighth year. From 1995-99, the first phase of the 
Acid Rain Program, annual SO<INF>2</INF> emissions from the largest, 
highest-emitting sources dropped by nearly 5 million tons from 1980 
levels. These significant reductions were an average of 25 percent 
below required emission levels, resulting in earlier achievement of 
human health and environmental benefits.
    Like the Acid Rain Program, the Clear Skies Act would allow sources 
to trade emissions under each cap. This design has demonstrated its 
ability to protect environmental integrity while providing a host of 
positive incentives, including early reductions and development of 
innovative technologies. The cap on emissions and significant automatic 
penalties for noncompliance guarantee that environmental goals are 
achieved and sustained, while stringent emissions monitoring and 
reporting requirements make flexibility possible. By using this proven, 
market-based approach, Clear Skies would dramatically reduce air 
pollution from power plants quickly and cost-effectively, keeping 
electricity prices affordable and protecting America's health and 
environment.

New Source Review Improvement

    There has been long standing agreement among virtually all 
interested parties that the NSR program for existing sources can and 
should be improved. For well over ten years, representatives of 
industry, State and local agencies, and environmental groups have 
worked closely with EPA to find ways to make the program work better. 
In 1996, EPA proposed rules to amend several key elements of the 
program. In 1998, EPA sought additional public input on related issues. 
Since 1996, EPA has had countless discussions with stakeholders and has 
invested substantial resources in an effort to develop final revisions 
to the program. Between the 1996 proposal and January 2001, EPA held 
two public hearings and more than 50 stakeholder meetings. 
Environmental groups, industry, and State, local and Federal Agency 
representatives participated in these many discussions.
    In 2001, the National Energy Policy Development Group asked EPA to 
investigate the impact of NSR on investment in new utility and refinery 
Generation capacity, energy efficiency and environmental protection. 
During this review, the Agency met with more than 100 groups, held four 
public meetings around the country, and received more than 130,000 
written comments. EPA issued a report to President Bush on June 13 in 
which we concluded that the NSR program does, in fact, adversely affect 
or discourage some projects at existing facilities that would maintain 
or improve reliability, efficiency, and safety of existing energy 
capacity. This report lends strong support to the decade-long effort to 
improve the NSR program.
    We now believe that it is time to finish the task of improving and 
reforming the NSR program. At the same time that we submitted our 
report to the President, we published a set of recommended reforms that 
we intend to make to the NSR program. These reforms are designed to 
remove barriers to environmentally beneficial projects, provide 
incentives for companies to install good controls and reduce actual 
emissions, provide greater specificity regarding NSR applicability, and 
streamline and simplify several key NSR provisions. We plan to move 
ahead with this rulemaking effort in the very near future. We look 
forward to working with you during this important effort. The proposed 
improvements are summarized below.

Summary of Improvements

    Congress established the New Source Review Program in order to 
maintain or improve air quality while still providing for economic 
growth. The recommended reforms announced in June, 2002, will improve 
the program to ensure that it is meeting these goals. These reforms 
will:
    <bullet> Provide greater assurance about which activities are 
covered by the NSR program;
    <bullet> Remove barriers to environmentally beneficial projects;
    <bullet> Provide incentives for industries to improve environmental 
performance when they make changes to their facilities; and
    <bullet> Maintain provisions of NSR and other Clean Air Act 
programs that protect air quality.
    The following NSR reforms, all of which were originally proposed in 
1996, have been subject to extensive technical review and public 
comment:
    <bullet> Pollution Control and Prevention Projects: To encourage 
pollution control and prevention, EPA will create a simplified process 
for companies that undertake environmentally beneficial projects. NSR 
can discourage investments in certain pollution control and prevention 
projects, even if they are environmentally beneficial.
    <bullet>  Plant-wide Applicability Limits (PALS): To provide 
facilities with greater flexibility to modernize their operations 
without increasing air pollution, a facility would agree to operate 
within strict site-wide emissions caps called PALS. PALS provide 
clarity, certainty and superior environmental protection.
    <bullet> Clean Unit Provision: To encourage the installation of 
state-of-the-art air pollution controls, EPA will give plants that 
install clean units operational flexibility if they continue to operate 
within permitted limits. Clean units must have an NSR permit or other 
regulator limit that requires the use of the best air pollution control 
technologies.
    <bullet> Calculating Emissions Increases and Establishing Actual 
Emissions Baseline: Currently, the NSR program estimates emissions 
increases based upon what a plant would emit if operated 24 hours a 
day, year-round. This can make it difficult to make certain modest 
changes in a facility without triggering NSR, even if those changes 
will not actually increase emissions. This common-sense reform will 
require an evaluation of how much a facility will actually emit after 
the proposed change. Also, to more accurately measure actual emissions, 
account for variations in business cycles, and clarify what may be a 
more representative period, facilities will be allowed to use any 
consecutive 24-month period in the previous decade as a baseline, as 
long as all current control requirements are taken into account.
    EPA also intends to propose three new reforms that will go through 
the full rulemaking process, including public comment, before they are 
finalized. These include:
    <bullet> Routine Maintenance, Repair and Replacement: To increase 
environmental protection and promote the implementation of routine 
repair and replacement projects, EPA will propose a new definition of 
routine repairs. NSR excludes repairs and maintenance activities that 
are routine. but a multi-factored case-by-case determination must 
currently be made regarding what repairs meet that standard. This has 
deterred some companies from conducting certain repairs because they 
are not sure whether they would need to go through NSR. EPA is 
proposing guidelines for particular industries to more clearly 
establish what activities meet this standard.
    <bullet> Debottlenecking: EPA is proposing a rule to specify how 
NSR will apply when a company modifies one part of a facility in such a 
way that throughput in other parts of the facility increases (i.e. 
implements a ``debottlenecking'' project). Under the current rules, 
determining whether NSR applies to such complex projects is difficult 
and can be time consuming.
    <bullet> Aggregation: Currently, when multiple projects are 
implemented in a short period of time, a detailed analysis must be 
performed to determine whether the projects should be treated 
separately or together (i.e. ``aggregated'') under NSR. EPA's proposal 
will establish two criteria that will guide this determination.
    An important consideration to keep in mind is that the NSR program 
is by no means the primary regulatory tool to address air pollution 
from existing sources. The Clean Air Act provides authority for several 
other public health-driven and visibility-related control efforts: for 
example, the National Ambient Air Quality Standards (NAAQS) Program 
implemented through enforceable State Implementation Plans, the NOx SIP 
Call, the Acid Rain Program, the Regional Haze Program, the National 
Emissions Standards for Hazardous Air Pollutants (NESHAP) program, etc. 
Thus, while NSR was designed by Congress to focus particularly on 
sources that are newly constructed or that make major modifications. 
Congress provided numerous other tools for assuring that emissions from 
existing sources are adequately controlled.
    In summary, the NSR reforms will remove the obstacles to 
environmentally beneficial projects, simplify NSR requirements, 
encourage emissions reductions, promote pollution prevention, provide 
incentives for energy efficient improvements, and help assure worker 
and plant safety. Overall, our reforms will improve the program so that 
industry will be able to make improvements to their plants that will 
result in greater environmental protection without needing to go 
through a lengthy permitting process. Our actions are completely 
consistent with key provisions of the Clean Air Act designed to protect 
human health and the environment from the harmful effects of air 
pollution.
    In closing, I want to reemphasize that we are working to refine and 
extend an integrated approach to dealing with the remaining air quality 
problems that face this nation. This integrated approach begins with 
continuing and refining the programs that have proved so successful, 
such as the NAAQS implemented through enforceable State Implementation 
Plans, the NOx SIP Call, the Federal Motor Vehicle Control Program, the 
Acid Rain program, the Regional Haze program, and the National 
Emissions Standards for Hazardous Air Pollutants. The approach builds 
on this base by adding new elements, such as the new regulation we are 
developing to reduce emissions from heavy-duty off-road engines and the 
Clear Skies Act to reduce emissions from power plants. We are also 
working to refine existing elements, such as the New Source Review 
program, to make the program work more efficiently while providing 
environmental benefits.
    Thank you. I would be happy to answer any questions that you may 
have.

    Senator Edwards. Dr. Olden?
    Mr. Olden. Thank you, Senator Edwards.
    I too am very pleased to appear before this committee to 
talk about the important work and research that is supported by 
the National Institute for Environmental Health Sciences. But 
today, I will restrict my comments to research related to air 
pollution and human health as requested.
    First, let me take this opportunity to thank the 
Environmental Protection Agency for many productive 
collaborations over the years, particularly as it relates to 
air pollution and human health.
    Over the past 35 years, the U.S. has made remarkable 
progress in improving the quality of the environment, and most 
of the visible environmental problems of the 1950's and 1960's 
have been ameliorated.
    Whether current levels of exposure to environmental 
pollutants is contributing to the high incidence of disease is 
a matter of considerable concern. The current view is that 
complex diseases such as cancer, Alzheimer's, Parkinson's, 
asthma, diabetes, cardiovascular and lung diseases are caused 
by the complex interaction between one's genetic make-up, one's 
behavior, and one's environment.
    So to develop strategies to prevent or treat such diseases 
will require an understanding of the complex interaction 
between genes, the environment, and behavior.
    Research on the health effects of air pollution has been a 
high priority of the National Institute for Environmental 
Health Sciences since its creation in 1966 as a division of the 
NIH. It is well-documented that breathing severely or highly 
polluted air can cause acute health problems and death. For 
example, the London fog episode in the winter of 1952 caused 
the death of more than 4,000 people.
    But despite remarkable improvements in air quality since 
the passage of the Clean Air Act in 1970, several recent 
epidemiologic studies have reported that current levels of air 
pollution in several cities in the U.S. are associated with 
increased rates of morbidity and mortality from cardiovascular 
and pulmonary diseases.
    Such studies raise the concern that ambient air still poses 
a health risk. For example, a paper published by Dr. Pope, who 
will testify shortly, and his colleagues in March of this year 
reported that for each microgram per cubic meter of fine 
particulate air pollution, it was associated with a 4 percent 
increase in mortality for all diseases, a 6 percent increase in 
mortality for cardiopulmonary diseases, and an 8 percent 
increase in mortality from lung cancer.
    In other studies described in my written submission, 
relative risk from 15 to 26 percent has been reported when 
investigators compare the most polluted versus the least 
polluted cities. This is the Harvard Six Cities and 24 Cities 
study.
    There have also been recent reports that exposure to 
ambient air in the State of California is associated with 
decreased lung growth and function in children. To date, more 
than 80 epidemiologic studies have been published to show that 
there is an association between ambient air pollution and 
adverse health outcomes.
    So the link between air pollution and adverse health 
outcomes is very clear.
    We need additional studies, and first of all, we need these 
studies because the studies described and published to date 
were independent, smaller studies, and what we need is a large, 
coordinated, multicenter study employing common protocol, core 
laboratory facilities for study design and data analysis, and 
the cohort must be large enough to ensure statistical power, 
and many or multiple endpoints must be analyzed simultaneously.
    Now, epidemiologic studies are important. They provide an 
important framework around which to construct novel hypotheses, 
to investigate or identify risk factors. However, epidemiologic 
studies do not establish a cause and effect relationship.
    Epidemiology is a powerful tool to assess population risk, 
but epidemiologic studies provide little information about 
biologic mechanisms and do not provide a toxicologic framework 
to interpret the findings. So there is a need for more 
research.
    You may ask why more research. Well, knowledge provides 
more options for management. Further laboratory and clinical 
research is needed to establish plausibility and mechanism for 
the epidemiologic observations.
    Now, research is needed in four to five areas. The first is 
in the area of mixtures. Air pollution is a mixture containing 
multiple chemical, physical, and biological agents. The 
important question is which of the various components of air 
pollution are responsible for the adverse health effects, and 
are the adverse health effects observed due to interaction 
between some of the components in the air mixture.
    Exposure is another area where we need research. 
Historically, exposure has been assessed using indirect 
surrogates. For example, in epidemiology studies, exposure is 
usually assessed by self-reporting, but what we need is 
exposure analysis that is based on direct assessment of 
exposure, because exposure is dependent on one's unique 
biology, which we are now beginning to understand, and exposure 
is also a function of one's personal behavior--for example, do 
you exercise outdoors in the hot summer months.
    Susceptibility is also another important concern. Is there 
a subpopulation that is susceptible at pollutant levels that 
are found in ambient air, and if so, how big is this 
population, and is the susceptibility due to genetics, 
behavior, age, or stage of development. And there is evidence 
for all three.
    The other area where research is needed is the development 
of appropriate animal models or test systems. To date, we do 
not have good test systems to investigate the health effects of 
air pollutants at ambient levels. The technologies are now in 
hand, using genomic approaches, to develop such technologies.
    The other area of research that is needed is to look at the 
combined effects of heat and air pollution. Both heat and air 
pollution affect the same systems, the cardiovascular and 
respiratory systems. And the question is is there a synergy 
between the two, and if one's cardiovascular and respiratory 
systems are already compromised, let us say, by air pollution, 
will it be exacerbated by hot summer days. This is an issue 
that is just beginning to be investigated.
    This is an especially important concern for summer days in 
which the air quality is poor, and it is of special concern for 
children and the elderly.
    In summary, we need more and better information to make 
certain that we are controlling the right things at the right 
level and with the most efficient and cost-effective 
technologies.
    Thank you very much.
    [The prepared statement of Mr. Olden follows:]
                Prepared Statement of Mr. Kenneth Olden
    Mr. Chairman, I am pleased to appear before this Subcommittee to 
discuss the human health effects of air pollution that have been 
discovered by grantees of our Institute. My name is Ken Olden and I am 
the Director of the National Institute of Environmental Health Sciences 
(NIEHS) of the National Institutes of Health (NIH). The NIEHS has some 
of the longest-term epidemiologic studies on the health effects of air 
pollution in the country. Much of this research has been instrumental 
in identifying the more harmful aspects of air pollution and 
identifying groups who are more susceptible. I would also like to 
recognize the contributions in this effort of our sister Institutes and 
agencies both within and outside of the Department of Health and Human 
Services, especially the National Institute of Allergy and Infectious 
Diseases, the National Heart, Lung, and Blood Institute, the Centers 
for Disease Control and Prevention, and the Environmental Protection 
Agency. The NIEHS has developed a number of strong partnerships and 
collaborations with these and other agencies (for example, the Inner 
City Asthma Study and the Children's Environmental Health and Disease 
Prevention Centers). These collaborative efforts have been instrumental 
in supporting the research on which I will report today.
    Air pollution itself has a number of different components. Ozone, 
oxides, and sulfur dioxide are common gases found in polluted air. 
Additionally particulate matter such as soot is a byproduct of 
combustion that can appear concurrently with gases. Particulate matter 
comes in a variety of sizes, and the size, as well as other factors 
(i.e., respiration rate, oral or nasal breathing), affect deposition of 
particles in the lungs. Particulates are generally measured as microns 
or micrometers (<greek-m>m) in diameter. As a point of reference, the 
human hair is roughly 100 microns in diameter. What we are finding is 
that particles of 2.5 microns (PM2.5) and smaller may be more harmful 
than particles greater than PM2.5. Fine particulate pollution is 
usually a mixture of solid particles and liquid droplets that can 
include acid condensates as well as sulfates or nitrates. The solid 
components can include heavy metals such as mercury, cadmium, tin, 
vanadium or even lead, The health effects of other components of 
particulate matter and of ozone; on the other hand, have only recently 
begun to be understood and so will constitute the major part of my 
testimony.
    The earliest epidemiologic work on air pollution found that as air 
quality deteriorated, the number of hospitals admissions, asthma 
attacks, and deaths from all causes increased. These admittedly were 
crude measures of effect, but the evidence was sufficiently compelling 
to identify air pollution, particularly ozone, sulfur species and fine 
particulate air pollution, as being associated with these adverse 
effects. The elderly, asthmatics, and children were identified as 
particularly vulnerable subpopulations.
    Recent studies have refined this earlier work. These newer studies 
have been able to control for smoking, diet, occupation, and other 
lifestyle factors that were possible confounders in the earlier 
studies. Three of the major health effects associated with air 
pollution are: asthma attacks and other airway sensitivity disorders: 
lung cancer; and heart attacks. Given the prevalence and health costs 
of these diseases, it behooves us to try to prevent their occurrence.
    I will briefly mention some of these more recent findings. Peters; 
et al., 2001 (Circulation, 103:2810-2815) examined several hundred 
patients with myocardial infarction (MI) and found that elevated 
concentrations of fine particles in the air were associated with an 
elevation in the risk of MIs within a few hours and 1 day after 
exposure. Further epidemiologic studies in other locations are needed 
to clarify the importance of this potentially preventable trigger of MI 
in people. There have been, however; several small studies in people 
showing that particulate levels can increase biological products that 
enhance risk for coronary heart disease, which strengthens the 
possibility that particulates can trigger MIs. These products include C 
reactive protein (Peters, et al., 2001. Eur. Heart J., 23:1198-1204; 
Seaton, et al., 1999, Thorax, 54:1027-1032), plasma viscosity (Peters, 
et al., 1997, Lancet, 349:1582-1587), and blood fibrinogen (Ghio et 
al., 2000, Am. J. Respir. Crit. Care Med., 162:981-988). Further 
corroboration of the epidemiologic evidence can be found in animal 
studies of Godleski et al., 2002 (Res. Rep. Health Eff. Instit., 91:5-
88), in which exposure to concentrated ambient particulate matter 
resulted in measurable electrocardiogram (EKG) changes.
    Pope, et al., 2002 (JAMA, 287:1132-1141) recently published the 
results of a study that followed 500,000 adults over 16 years. This 
study found that fine particulate and sulfur oxide-related pollution 
was associated with several fatal diseases. These findings provide 
evidence that long term exposure to fine particulate air pollution 
common to many metropolitan areas is an important risk factor for 
deaths from heart and lung diseases. Interestingly, they also showed a 
protective effect of education level. There is no real reason to assume 
that people with lower education have a greater susceptibility to 
effects of particulate matter. If, however, you accept that education 
level is a surrogate for income level, then this study also suggests 
that adverse health effects of air pollution may also exhibit a 
socioeconomic disparity component.
    The studies I have mentioned so far have focused on adults, but 
children are another vulnerable population that can be affected by air 
pollution. Asthma is a serious lung disorder that has been increasing 
in children. A number of factors seem to be implicated in asthma, 
particularly exposure to indoor allergens such as mold spores, 
cockroaches, dust, and second-hand smoke. Other studies are focussing 
on a possible link of asthma to decreased rates of breast feeding and 
an increase in childhood obesity. Outdoor air might play a role, too. 
It has been demonstrated repeatedly in industrialized cities in the 
U.S. and the world that ozone and other lung irritants can trigger 
asthma attacks, accounting for the increased hospitalizations observed 
during episodes of high air pollution, particularly of ozone (Peden, 
2002, Environ. Health. Perspect., 110 (suppl 4):565-568). New evidence 
suggests that ozone might actually be involved in causing asthma. A 
recent study (McConnell, et al., 2002, Lancet, 359:386-391) found that 
children in communities with high average ozone levels who compete in 
three or more team sports have a three-to-four times higher risk of 
developing respiratory illness than do non-athletic children. The more 
sports children participate in, the greater the effect. Most of the 
children who were diagnosed with asthma had no history of wheezing, 
suggesting that they may not have previously undiagnosed asthma made 
worse by ozone. Rather, these children apparently developed new cases 
of asthma. This study did not exclude the possibility that other 
pollutants also might play a role in asthma development. These 
pollutants would include particulates, and active and passive tobacco 
smoke. Despite these limitations, the results from this study merit 
further investigation.
    Even in children who do not develop serious lung diseases, air 
pollutants have been shown to adversely affect normal lung development. 
Children followed from ages 10 to 14 years were found to have a 10 
percent lower lung function growth rate if they lived in polluted areas 
compared to less polluted areas (Gauderman, et al., 2000; Am. J. 
Respir. Crit. Care Med.,. 162:1383-1390). These studies indicate that 
high levels of air pollution might be robbing our children of optimal 
lung growth and development. The effects of these early decrements in 
function, factored over their lifetimes, are of serious concern.
    Air pollution can also act synergistically with other adverse 
environmental conditions. For example, heat waves cause increased 
mortality in human populations. If a heat wave occurs in the presence 
of poor air quality, the effect is enhanced. The synergy between high 
temperatures and poor air quality has been observed around the world, 
including Japan (Piver et al., 1999, Env. Health Perspec., 107:911-
916), Belgium (Sartor, et al., 1995, Environ. Res., 70:105-113), and 
Greece (Katsouyanni, et al., 1993, Arch. Env. Health, 48:235-242). 
These results give another layer of complexity to understanding the 
human health effects of air pollution. In fact, dissecting the health 
consequences of air pollution must account for the types of pollutants, 
the accompanying exposure conditions, the age of individuals, and the 
health and genetic susceptibilities of these individuals.
    To achieve a greater control of exposure conditions than is 
possible with human subjects, Federally-supported scientists are taking 
advantage of animal models. The NIEHS Inhalation Toxicology Branch and 
our intramural and extramural scientists are working with rodent models 
of lung injury/inflammation/dysfunction to examine the effects of 
exposure to particulates and ozone. Some of these studies include 
investigations with knockout and transgenic mice that can begin to 
examine the interrelationships between environmental exposures and 
genetics. These and other state-of-the-art studies enhance and expand 
upon the associations found in human epidemiologic studies.
    Health effects of air pollution will continue to be an important 
component of the Federal environmental health research portfolio. In my 
testimony I have highlighted some of the more important findings 
recently made by researchers supported by the Federal Government. I 
would be happy to answer any questions you might have.

    Senator Edwards. Thank you very much, Dr. Olden.
    Mr. Holmstead, let me ask you a few questions if I could.
    Mr. Holmstead. Certainly.
    Senator Edwards. At the time you testified at the hearing 
before the Judiciary and Environment Committees, where I was 
present, and as you indicated earlier, you and I had a 
discussion about a number of things, I asked you whether you 
had done a serious analysis of the effects on human health of 
these proposed changes in new source review, and you 
indicated--I do not remember your exact words--but your answer 
was to the effect that that is something that can be done.
    Then, in the letter that I and 43 other Senators wrote to 
you, we asked you essentially the same question--can you tell 
us what analysis has been conducted, what sort of serious, 
rigorous analysis has been conducted of the effect that these 
proposed changes will have on human health, on kids with 
asthma, on senior citizens with serious heart and respiratory 
problems.
    In the responsive letter that I got, I did not see the 
answer to that question, so let me ask you for a third time, 
sine these are changes that you are proposing that would not go 
through the Congress, that would become law as soon as they 
were finalized and could affect literally millions of Americans 
all over the country and their health.
    Have you at this point done a serious, rigorous analysis of 
the effects on human health of these proposed changes?
    Mr. Holmstead. Yes, we have.
    Senator Edwards. OK. Can you tell me--do we have that 
somewhere in writing?
    Mr. Holmstead. This analysis really appears in a number of 
places. Beginning back in--as you know, there are two sets of 
changes, as you mentioned, changes that are, as we say ``going 
final on'' because they have already been proposed.
    Senator Edwards. Right.
    Mr. Holmstead. When these----
    Senator Edwards. Those that have already gone through the 
comment and rulemaking process.
    Mr. Holmstead. Right, right.
    When those were proposed back in 1996, the Agency conducted 
an analysis called an ``RIA,'' a regulatory impact analysis, 
and at that point, the Agency----
    Senator Edwards. What year did you say? I'm sorry.
    Mr. Holmstead [continuing]. Nineteen ninety-six--the Agency 
did an analysis of these proposed changes and concluded that 
they were environmentally neutral. And I can read from the 
analysis here. It says: ``The proposed changes in the NSR 
reform package''--this is from the 1996 RIA--``are 
environmentally neutral. Air quality management requirements as 
defined by the NAAQS are unchanged by this rulemaking, and 
therefore, the environment will not be impacted as a result of 
these changes.''
    Now, since then, our agency has done quite a bit of 
additional analysis, and we believe that at least three of 
the----
    Senator Edwards. Can I interrupt you just to ask--those 
proposed changes that you are talking about are the Clinton 
Administration's?
    Mr. Holmstead. That is correct, yes.
    Senator Edwards. Those were not enacted into law, as I 
understand it.
    Mr. Holmstead. No, no, but those are the changes that we 
are now--we do not say ``enacted,'' we say ``finalized'' as 
final regulations.
    Senator Edwards. But they have the effect and force of law 
once they become finalized.
    Mr. Holmstead. Right. They become regulations that are law 
until they may be changed, but they do not require an act of 
Congress; they could be changed administratively.
    But again, we are finalizing many of those proposed 
changes, and that is what you refer to----
    Senator Edwards. Is it your testimony that the changes you 
are proposing, the entire set of changes that you are proposing 
that you have identified for us today, are identical, that is, 
the same as those that were analyzed--and by the way, Ms. 
Browner is here, as you know, and she will be able to respond 
specifically on this question--but is it your testimony that 
the changes that were analyzed by the Clinton Administration 
are identical to the changes you are now proposing, including 
the change in the definition on routine maintenance?
    Mr. Holmstead. Remember, we are not changing the definition 
for routine maintenance. That has nothing to do with this final 
rulemaking package. In addition to the five----
    Senator Edwards. That is something that you are proposing, 
is it not?
    Mr. Holmstead. Right, but that is not something that we are 
finalizing
    Senator Edwards. Right; I understand.
    Mr. Holmstead. So we are finalizing these five changes, 
which are--I will not say that they are identical, but they are 
substantially similar. In fact, under the Administrative 
Procedures Act, they have to be essentially the same as what 
was proposed. There are a few differences. For instance, back 
in 1996, on the baseline issue, the Clinton Administration 
under Administrator Browner proposed that the baseline would be 
the highest year in the past 10 years. There was concern that 
by having just 1 year, that could lead to unrepresentatively 
high emissions, and so, instead of having a one-in-ten baseline 
which was proposed, we are finalizing a two-in-ten baseline. We 
are making a few other changes that are sort of along the same 
order of magnitude, but essentially the same.
    So what I am testifying is that the changes that we are 
finalizing are substantially the same as those that were 
proposed back in 1996. And again, in 1996, the Agency analyzed 
these changes and found that they would be environmentally 
neutral. Since that time, we have conducted additional 
analysis, and we are quite confident that several of the 
changes that we are making will actually be positive for the 
environment.
    Senator Edwards. Where is this additional analysis that you 
are talking about? Where is that?
    Mr. Holmstead. All of that will be in the rulemaking 
record. For instance, I think we have already provided the 
Congress with our analysis of PALs in terms of a draft report 
which we will finalize before it is in the final--but that is 
already in the rulemaking record; that is publicly available.
    We have done a pilot project on this one reform which we 
refer to as ``plant-wide applicability limits,'' and we have 
discovered that every one of our pilot projects where a plant 
has taken a PAL limit, they have actually reduced their 
emissions more than they otherwise would have under the New 
Source Review Program.
    So all of this analysis is available. Additional analyses 
will be available at the time we finalize these rules.
    Senator Edwards. As part of the RIA that you just made 
reference to by the Clinton Administration, did they conclude 
that the proposed revisions--which they, I will point out 
again, did not adopt--to major NSR applicability criteria would 
exclude an estimated 50 percent of sources, that is, half of 
those that would otherwise be subject to new source review?
    Mr. Holmstead. I do not know if that is the exact number, 
but I think it is important for everyone to recognize----
    Senator Edwards. I am happy to hear your explanation, but 
can you tell me first whether that is true. Did they conclude 
that if the change, which they did not adopt, were in fact to 
become final that 50 percent of the plants that would otherwise 
be subject to new source review would not?
    Mr. Holmstead. Again I do not know if 50 percent is the 
exact number----
    Senator Edwards. So how many--can you tell me--I am sorry--
--
    Mr. Holmstead. I just wanted to confirm with my staff that 
it was 50 percent.
    Senator Edwards. Can you tell me how many under your 
proposed changes, how many would not be subjected to new source 
review?
    Mr. Holmstead. I assume that it would be roughly the same, 
but again, I think it is important to remember that the Clinton 
Administration, when they analyzed these changes when they 
proposed them in 1996, said that 50 percent fewer plants would 
actually go through NSR, but that that did not mean that there 
would be any negative environmental consequences.
    There is no necessary connection between how many plants go 
through NSR and how emissions are reduced. In fact, there are 
many ways now, when people increase their emissions so they can 
avoid triggering NSR--and this actually happens a lot; it is 
one of the things that we are most concerned about. Right now 
under the NSR program, any facility that is considered to be a 
major source has a very strong incentive to keep their 
emissions high, because that is the only way they can avoid NSR 
in the future.
    For instance, there are many manufacturing plants in the 
country right now that have big boilers--that is how they 
produce power and steam for their plants--that operate on 
natural gas, which is a very clean fuel and which we encourage. 
Most of those boilers also have provisions in their permit 
which allow them to run on a backup fuel like diesel fuel for 
30 days a year. We would rather they did not do that, because 
diesel fuel is much more polluting, and in many cases, they 
would rather not do that because it can be more expensive. But 
under the current NSR program, they have to run that boiler 30 
days a year or they lose the ability to do that in the future.
    So we can tell you many examples of cases where, in order 
to avoid NSR now, people keep their emissions high, and those 
are the sorts of disincentives that we are trying to eliminate 
in this program, and that is why many of the changes that we 
are--or, at least several of the changes--that we are 
finalizing, which were proposed in 1996, we now believe will 
actually improve the environment, will decrease emissions 
compared to what they would otherwise be.
    Senator Edwards. Can you tell me where the empirical 
analysis of any kind is that shows what the effect of the 50 
percent, approximately, of these plants that would no longer be 
subject to new source review, what effect that would have on 
children with asthma, what effect it would have on senior 
citizens who have respiratory problems? Have you done any kind 
of analysis of that?
    Mr. Holmstead. Yes.
    Senator Edwards. And where is that?
    Mr. Holmstead. Again, the analysis is very simple. What we 
can say is that there will be fewer emissions under these rules 
than there would otherwise have been. So for children with 
asthma, their lives will be better off; for people who suffer 
from respiratory illnesses, they will be better off because 
pollution will be reduced. And again, as I say, I refer back to 
the----
    Senator Edwards. We appreciate your saying that, but can 
you point me to the empirical information that you are basing 
those statements on? If it exists, we would like to know it, 
but I want to see specifically what you are referring to.
    Mr. Holmstead. We have provided some of that, and all of it 
will be provided----
    Senator Edwards. Where?
    Mr. Holmstead. Well, again, I am happy to refer you to the 
1996 RIA. I am also happy to refer you to----
    Senator Edwards. Does the 1996 RIA look at the effect on 
human health?
    Mr. Holmstead. Yes, it does. It says the package will be 
environmentally neutral, meaning that it will not increase 
emissions. That is what the administration said back in 1996.
    The major changes that we are making--one of them, as I 
referred to before, is plant-wide applicability limits. In our 
docket, there is a report of all of the plants that we have 
studied that have PALs, and again, that report quantifies the 
emissions reductions that we have achieved from those plants.
    Now, I will tell you that as part of the rulemaking record, 
we are going to try to extrapolate from the plants that we have 
studied to the universe of plants that might take advantage of 
the PAL program.
    Senator Edwards. I want to give Senator Clinton a chance to 
ask questions since she has arrived, but can I ask you one last 
question on this subject, and then I may have others when she 
is finished.
    Mr. Holmstead. Certainly, yes.
    Senator Edwards. Can you tell me what quantification you 
have made of the impact on pollution levels as a result of 
changing the baseline calculation? In other words, instead of 
having 2 years or some other appropriate period, going to a 10-
year period during which any 2 years could be chosen--have you 
quantified that effect?
    Mr. Holmstead. We are trying right now to see if there is a 
way that we can quantify that, and we have people working on 
that right now. Again, I would refer you back to the 1996 
proposal where--and what the Agency analyzed at that point was 
not a two-in-ten but a one-in-ten, meaning that you could have 
a higher baseline. And the Agency's conclusion in 1996 was that 
that was environmentally neutral because of various other 
provisions in the Clean Air Act.
    Senator Edwards. I will just say, Mr. Holmstead--and Ms. 
Browner will be testifying, and she of course was there and 
very intimately involved in all this--but from my discussions 
with her, I think we are going to hear a very different 
perspective on the similarities and differences between your 
approach and their approach. But we will hear about that----
    Mr. Holmstead. I look forward to hearing that, but again, 
I----
    Senator Edwards. I hope you will stay for her testimony if 
you can.
    Mr. Holmstead. I will certainly be interested to hear what 
she has to say. And again, I just want to make it clear that 
what I am referring to is the rulemaking record and the public 
documents, and again, I think we have provided those to you 
already; if not, we will certainly provide them for the record.
    Senator Edwards. Senator Clinton?

                  Opening Statement of Senator Clinton

    Senator Clinton. Thank you, Senator Edwards, for calling 
today's hearing. This is obviously a critically important 
issue, the connection between human health and changes to the 
Clean Air Act. And I think that what we are focusing on today 
is the administration's announcement that it intends to make a 
number of changes to the part of the Clean Air Act commonly 
referred to as ``new source review.''
    I want to thank the witnesses who are here. I have had the 
pleasure of having Dr. Olden before me, and I respect greatly 
the work that he does, and I thank you for coming as well, Mr. 
Holmstead.
    I particularly want to thank Carol Browner for the work 
that she did for 8 years and the progress that was made under 
her leadership, and also Dr. George Thurston of NYU Medical 
School, who has been part of the groundbreaking research that 
has really demonstrated clearly the linkage between pollutants 
in the air we breath and the quality of our health. In fact, 
Dr. Thurston testified before this committee earlier this year 
with respect to health-tracking legislation that I have 
introduced with Senator Reid of Nevada, and I hope we will be 
able to mark that up later this month.
    Obviously, we now know something that we could not prove in 
1996. Many of us intuited it, we believed it, but there was not 
the hard and fast proof that Dr. Thurston and other scientists 
have now provided to us, and that is that there is a linkage 
between pollution and our health.
    What does that mean? Well, I think it means that we have a 
higher level of responsibility than we did in 1996 when we 
worked on the basis of the best information available. But that 
is what is so wonderful about science, that it provides 
additional information. Sometimes it debunks beliefs. Sometimes 
it takes what we think and feel and puts it into hard 
statistical analysis.
    We now know without doubt, based on these recent studies, 
some of which go back many years, even pre-1996, but which have 
come to fruition in the recent months, that there is a 
correlation between increases in air pollution and increases in 
hospital admissions, asthma attacks, heart attacks, lung 
cancer, and even premature death.
    Now, I think that that is stunning. And here we are, faced 
with this evidence, and to many of us, the administration seems 
to be rushing to implement new rules without adequate attention 
being paid to these research findings.
    Recent epidemiological studies show that human exposure to 
air pollution increases the risk for heart disease. Exposure to 
ozone pollution may not only trigger asthma attacks but 
actually cause asthma in children.
    So the biological, epidemiological proof that air pollution 
not only contributes to but also causes disease is finally one 
that we cannot ignore except at our peril.
    So the logical thing to do, it seems to me, if we care 
about our health is to take steps to curb pollution from power 
plants and from other sources, and that is why we are here 
today, because Senator Edwards, myself, and others in the 
Senate, as well as many representatives of medical and academic 
communities, are concerned about the impacts of that 
administration's proposals both with respect to new source 
review and multipollutant legislation will have on human health 
and the environment.
    I think all of us are willing to entertain certain reforms 
in the NSR program. That has to go along with scientific 
advances--but only in the context of significantly improving 
our air by curbing emissions.
    What the administration is doing by rushing to go final on 
a number of these changes to NSR is to end-run the process. 
And, to make it worse, from our experience to date, the 
administration cannot definitively tell us what impact these 
changes to the NSR program will have on air pollution or on 
human health.
    Many of us are also concerned about the administration's 4-
P proposal that we also believe falls short.
    And what I am having a hard time understanding, Mr. 
Holmstead, is that despite these health studies, despite the 
fact that they have been published in peer-reviewed scientific 
and medical journals since 1996 when the original proposals 
were made, the administration is still going forward.
    I believe there is time for us to take a step back and 
really consider what it is that we are trying to accomplish. 
Although the administration announced more than 2 months ago 
its intention to make changes, nothing has been published in 
the Federal Register to date.
    So I would like to take this opportunity to urge the 
administration to reconsider its position, and at the very 
least, the administration should allow the opportunity for 
comment on the final changes it intends to make so that those 
changes may be informed by recent scientific findings regarding 
the public health impacts of air pollution.
    As I came in and Senator Edwards was questioning you, Mr. 
Holmstead, I believe I heard you say that the evidence that you 
had would be published with the final rule. Well, that really 
does not do it very much good, does it? You were going to do 
this final rule regardless of the evidence, and now you are 
going to stick in evidence to somehow support the final rule. 
It sounds a little bit Alice-in-Wonderland-ish to me.
    So let me ask you, Mr. Holmstead, what is the harm of 
allowing additional time for comment on this rule package that 
you intend to make final? It is apparent that you do not have 
the analysis that Senator Edwards has asked for. It is obvious 
now that much has changed since 1996. Every time you go back 
and say, ``Well, this is what it said in 1996,'' you are in 
effect trying to turn the clock back on scientific research 
that has been proven in the last months to make the linkage 
between pollution and health that the original rule was 
attempting to try to address but did not have the scientific 
basis on which to make that rule change.
    So what is the harm of waiting, Mr. Holmstead?
    Mr. Holmstead. Let me first just agree with you that we 
know more now than we knew in 1996 about the health impacts of 
air pollution. And many of the studies that you refer to and 
that Senator Edwards referred to were studies that were 
sponsored by EPA. We do understand more, as Dr. Olden and Dr. 
Thurston and others will talk about, about the health impacts 
of air pollution and in particular the health impacts of fine 
particles and, as you and I have discussed, by far the single 
most significant contributor to fine particle pollution is 
power plants.
    So I absolutely agree with you, I absolutely agree with 
Senator Edwards, and I can say on behalf of the administration 
that we agree that the most important thing that we can do to 
improve air quality is to reduce emissions from power plants. 
And maybe we can even talk a little more about that. And I 
think what North Carolina has done in particular is very 
commendable and a very aggressive approach that we laud and 
support and applaud at EPA.
    You asked me about the harm in continuing to wait. The harm 
is that we will continue to have a program that artificially 
encourages companies to keep their pollution high. And nothing 
about that conclusion has changed since 1996. The basic 
conclusion in 1996 was that these proposals would not impact 
air pollution levels one way or the other.
    The NSR program includes many different pieces, and we are 
only addressing a small portion of that overall program, so 
nothing since 1996 really changes that conclusion.
    We do know that today, there are plants that--again, for 
reasons that I am happy to talk about--have a very strong 
incentive to keep their emissions high, because the way the 
program currently works, that is the only way they have 
flexibility into the future. And we want to remove those 
disincentives. We want to make the program work in a way that 
actually gives people the right incentives to install pollution 
controls, to undertake pollution prevention projects, to use 
innovative ways to reduce their emissions. And right now, 
companies that do that are actually penalized under the NSR 
program, and we really do want to remove those disincentives.
    Senator Clinton. Well, Mr. Holmstead, the problem with 
that--and I do not disagree with the process that you are 
describing, but what is bothersome is that you cannot at this 
time tell us that the final proposal will not increase 
pollution.
    Mr. Holmstead. Yes, I can.
    Senator Clinton. But you asserted you cannot prove it. You 
do not provide any kind of analysis about what the likely 
effects of these proposed changes would be.
    Now, I fully agree with the goals that you are setting for 
us. We all agree with the goals. I fully understand the 
anomalies within the Clean Air Act that sometimes make it not 
work as well as we would want it to, and that is why I said 
that many of us would support appropriate changes.
    But you know, this is the second time you have appeared 
before us, and I think you can sense some of our frustration 
because we share the goal, but you are not giving us a process 
that has any credibility attached to it that we can therefore 
say with these final rules that this is a step forward. And 
that is why I ask for the administration to perhaps take a deep 
breath and provide some additional time for comment. Perhaps 
through that, the administration might alter or refine its 
approach to new source review. But you have to believe it is a 
little disconcerting to recognize that this was a campaign 
promise by the President made regardless of what the scientific 
evidence was as a way of demonstrating support for those who 
frankly find compliance burdensome and onerous.
    So you have got to recognize that it raises some red flags 
to many of us. And I would just hope that in good faith, the 
administration would want to hear from some of the experts and 
determine after a limited period of additional comment whether 
there might not be a better way to proceed.
    Thank you, Senator Edwards.
    Senator Edwards. Thank you very much, Senator Clinton.
    Mr. Holmstead, let me just follow up on a couple of those 
things, plus the things you said to me earlier. We have 30,000 
people a year dying and over 600,000 asthma attacks as a result 
of this pollution, and you are proposing changing the 
regulations that has a force of law, as you well know----
    Mr. Holmstead. Right.
    Senator Edwards [continuing]. And when we ask you for the 
third time today where is your empirical evaluation of what 
kind of impact that is going to have on the health of the 
American people, your response is primarily, if I am hearing 
you correctly, to rely on an analysis done by a different 
administration in 1996, 6 years ago--and you conceded just a 
minute ago that there have been significant changes during that 
6-year period--and second, I am afraid I would respectfully 
disagree with you that this is the same set of proposals. I do 
not believe they are the same set of proposals.
    For example, the PALs proposal that the Clinton 
Administration proposed would have required plant owners to 
install new technologies and to reduce emissions in order to 
meet the new PALs proposed regulation. Yours does not.
    The Clinton provision on the clean unit exemption, which 
you also made reference to, applied prospectively. In other 
words, if you are taking advantage of new technologies, this 
clean unit exemption, it applies going forward, the notion 
being to create an incentive for these companies to install new 
technologies, all of which makes a great deal of sense in the 
abstract--I mean, we want them to take advantage of these new 
technologies, and we want to create incentives for them to do 
them.
    Yours, on the other hand, instead of only applying 
prospectively, applies 15 years retroactively. So that if I 
understand it correctly, that means that if they did something 
14 years ago, they can take advantage of this provision even if 
they have not done anything in the last decade.
    It just seems to me that at the end of the day, the 
proposals are not the same, number one--it is not the same set 
of proposals; there are significant differences between the 
proposals, and I assume Ms. Browner will have some testimony 
about that. But in addition to that, they are 6 years old. And 
when we are talking about the lives of thousands of people in 
this country and the health of kids with asthma, at least 
before we allow this thing to become final and change the law 
of the land, it at least deserves a serious look, which I think 
is what Senator Clinton is suggesting, a serious, up-to-date 
look at the impact of these specific proposals on human health.
    Do you really believe that that is too much to ask?
    Mr. Holmstead. Obviously, we take very seriously the 
impacts of anything that we will do on human health. And I 
cannot tell you how many hours I spend every week with Agency 
scientists, with outside scientists, trying to understand more 
about the health impacts of air pollution. And I, quite 
frankly, have been a little taken aback at how much we now 
know. However, none of this more recent science changes in any 
way what the Agency proposed back in 1996 because of the basic 
conclusion that those proposals were not going to have a 
negative impact on air quality. And as I say, this is something 
that has been, not only since 1996 when they were formally 
proposed, but since that time, there have been numerous public 
hearings, there have been public meetings, there has been an 
extensive process by which we have continued to gather 
information. And as I say, the rulemaking record contains 
extensive analyses that document our conclusions that these are 
the right thing to do for the environment.
    Now, the thing that you have asked us to do, which we are 
trying to do right now, is to try to quantify those. We can do 
analysis in many different ways. We do not always do 
quantitative analysis. But at your request, we are trying to do 
that analysis right now. Some of that, as I say, is ongoing. 
All of that will be provided to you, and we will give the 
Congress plenty of time to look at that quantitative analysis.
    Senator Edwards. And will you agree as you sit here today 
that before any action is taken to finalize the rule that you 
will provide that quantitative analysis to us and give us some 
time to digest it and respond to it?
    Mr. Holmstead. As I think you know, the Clean Air Act, the 
Administrative Procedures Act both contain provisions that tell 
us exactly how we have to provide information for people to 
look at, provide for public participation. There are other 
statutes that talk about congressional review. We will satisfy 
all of those requirements with respect to allowing for public 
participation, public comment, congressional review. We will 
absolutely comply with all of those requirements.
    Senator Edwards. OK. That sounded like ``No'' to me. Was 
that a ``No''?
    Mr. Holmstead. No. I am telling you that there are well-
established laws and procedures in place right now----
    Senator Edwards. We know--let us talk a little practically 
if we can--we know that some of these, as you indicated 
earlier, some of these proposals are ready to be finalized and 
some of them are just in the proposal stage.
    Mr. Holmstead. Right.
    Senator Edwards. Some of them are past comment and have 
gone through the whole rulemaking process.
    Mr. Holmstead. Right.
    Senator Edwards. I am asking you whether this quantitative 
analysis about, for example, calculating the baseline, which I 
think is in the group that is ready for being finalized----
    Mr. Holmstead. That is correct.
    Senator Edwards [continuing]. Are you going to provide us 
that information and give us time to look at it before you 
finalize the rules? It is a pretty simple question.
    Mr. Holmstead. That will be in the rulemaking docket. We 
will provide that at the time the rule is published as a final 
rule. At that point, the rule is not yet effective, and under 
the Congressional Review Act, you will have all of that 
information and have the opportunity to review it and decide 
whether this is something that you as a committee or you as a 
Congress want to have to deal with. But Congress will have all 
of that information before it needs to make a decision under 
the Congressional Review Act.
    Senator Edwards. But your answer is you will not commit 
today to provide us that information before you publish the 
rule in final form; is that correct?
    Mr. Holmstead. That is correct, yes.
    Senator Edwards. OK. Let me tell you why all of this is of 
concern to me. I will give you a couple of examples. One is you 
have attempted to justify your PALs proposal by relying on some 
data that came out of Delaware and saying that the Delaware--
for example, today, you compared the analysis done during the 
Clinton Administration to your proposal and said we can depend 
on that because the proposals are the same. They are not. You 
have done the same thing with respect to a Delaware prototype 
on PALs, the use of PALs. And Delaware, as I understand it--I 
have not seen it--but I understand they have written to you and 
said ``This is wrong. Do not use your PALs program to justify 
what you are doing, because they are not the same. What we are 
doing is much more rigorous, much more environment-friendly, 
than what you are proposing.''
    And within your own department, there was a draft done of a 
Clear Skies proposal--it is actually very similar to Senator 
Jeffords bill here in the Senate, but it was done within the 
EPA--that would have prevented 19,000 premature deaths per 
year. You all changed it--``you all'' being the 
administration--changed it so that that number went down to 
12,000 premature deaths by the year 2020, so 7,000 lives 
difference between the proposal that was written within the EPA 
itself and the final version that came out from the 
administration.
    I think we have reason, justifiable reason, to be concerned 
about these things, because my reading of these proposals taken 
on the whole--and we have not talked about, for example, the 
routine maintenance provision, where you extraordinarily 
expanded, in my view, the definition of what constitutes 
routine maintenance and as a result would in large part gut the 
new source review. And at the same time, there are 51 
enforcement actions going on right now that depend on existing 
law for what constitutes routine maintenance, because the 
defense in almost all of those cases is: What we did was 
routine maintenance.
    Well, you are about to significantly change and in my view 
expand the definition of what constitutes routine maintenance, 
which undermines the new source review, also has, or at least 
appears to have, some effect on what is happening with the 
pending litigation.
    The only request I have for you is we have now asked three 
different times, and I do think that as serious an issue as 
this is--this is about a lot of people's lives--and I take you 
at your word that this is something that you take seriously. 
What I would request in the process of taking it seriously is 
that before you publish a final rule, and as we go forward with 
the proposed change, for example, on routine maintenance, that 
you take a serious empirical look at the effect on human health 
so that we have that information before the law of the land is 
changed. Unfortunately, I did not hear that commitment from you 
here today, and we will act accordingly. But I think this is a 
serious issue, not just between the Senate and the 
administration--I think it is a serious issue for the lives of 
people all over this country--and I would again request that 
the administration respond by providing that information.
    Thank you, Mr. Holmstead.
    Mr. Holmstead. Thank you.
    Senator Edwards. Thank you, Dr. Olden.
    Mr. Olden. Thank you.
    Senator Edwards. Let me say welcome to our second panel of 
witnesses.
    We are joined by Carol Browner, who was the administrator 
of the Environmental Protection Agency and an extraordinary 
advocate for environmental protection and protection of human 
health during her time in the administration. We thank you so 
much for being here, and thank you for all the great work that 
you have done, and I hope we will have an opportunity to talk 
about some of the testimony that Mr. Holmstead gave earlier in 
the hearing.
    We will also hear from a scientist and a physician, Dr. 
George Thurston, who is on the faculty of the Medical School of 
New York University. Among his other accomplishments, he 
coauthored a groundbreaking study that was published in March, 
I believe, of this year, in the Journal of the American Medical 
Association, which definitively links lung cancer and heart 
disease death to air pollution. We appreciate very much you 
being here, Dr. Thurston, to provide your expertise.
    Finally, Dr. Clay Ballantine, who is from Asheville, in 
western North Carolina, the mountains of North Carolina, where 
we have had very serious problems, which I think Dr. Ballantine 
will talk about, with air pollution, which has had a very 
negative effect on the health of folks who live in western 
North Carolina. Dr. Ballantine has been very actively involved 
in this issue, so, Dr. Ballantine, thank you for taking the 
time to be here. It is important to have your perspective.
    Ms. Browner?

 STATEMENTS OF CAROL M. BROWNER, PARTNER, THE ALBRIGHT GROUP, 
 LLC, AND FORMER ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION 
 AGENCY; GEORGE THURSTON, ASSOCIATE PROFESSOR OF ENVIRONMENTAL 
MEDICINE, NEW YORK UNIVERSITY SCHOOL OF MEDICINE, NEW YORK, NY; 
             AND DR. CLAY BALLANTINE, ASHEVILLE, NC

    Ms. Browner. Thank you, Mr. Chairman, and I want to thank 
you for holding this extremely important hearing.
    The promise of the Clean Air Act is clean, fresh air and a 
healthy environment for all. The means for achieving this 
promise are, first, protective, scientifically-based public 
health standards; second, regulatory programs that require 
industry to do their fair share in an equitable and common 
sense manner; third, vigorous enforcement of the law; and 
fourth, public right to know and citizen oversight.
    These are the very same principles that are the foundation 
for all of our environmental progress in this country, whether 
it be clean air, clean water, toxic waste cleanup.
    For 8 years, I had the honor of serving the American people 
as the administrator of the U.S. Environmental Protection 
Agency. Through our work with the career public service 
employees of the EPA, we made significant progress in 
implementing the 1990 Clean Air Act. We adopted the toughest 
ever scientific-based air pollution standards for ozone and 
fine particles and won a historic U.S. Supreme Court battle, 9-
nothing, over those standards.
    We set new tailpipe and fuel standards for cars and trucks, 
including the first ever clean diesel requirements. Starting in 
2004, new cars and SUVs will be 75 to 95 percent cleaner than 
today because of our work.
    For heavy-duty diesel trucks and buses, our standards will 
reduce particulate pollution by 90 percent and smog-forming 
nitrogen oxides by 95 percent.
    We enforced the law against those who violated air 
pollution standards, collecting the largest penalties while 
securing real pollution reductions.
    The diesel engine settlement we negotiated included 1.3 
million tons a year in nitrogen oxide reductions.
    All of this work is improving and will continue to improve 
air quality across our country.
    The current administration's recent announcement of final 
and proposed changes to the New Source Review Program abandons 
the promise of the Clean Air Act--steady air quality 
improvements.
    Some have suggested that the administration's announced 
changes are changes that the Clinton Administration supported. 
Nothing could be further from the truth. Fundamental to 
everything we did was a commitment to ongoing air quality 
improvements. There is no guarantee, and more important, there 
is no evidence or disclosure demonstrating that the current 
administration's announced changes will make the air cleaner. 
In fact, the changes will allow the air to become dirtier.
    The administration owes the American people a full analysis 
of the public health and air quality consequences of their 
changes, not just an explanation of the flexibilities they are 
giving industry.
    As you well know, new source review requires existing 
facilities, old facilities, to install modern pollution control 
equipment only when they make a major modification and increase 
their pollution by more than 40 tons for the most commonly-
found pollutants--NOx, SOx, and volatile organic compounds. Not 
every change to a facility triggers a requirement to install 
pollution controls.
    Older facilities continue to be a huge pollution problem 
for this Nation. Seventy to 80 percent of all power plant 
emissions come from facilities that were built before 1977. 
Compared to modern or updated power plants, old plants emit 
four to 10 times more pollution for every megawatt produced.
    The health effects are significant. Many scientific experts 
estimate that 30,000 Americans die prematurely each year from 
fine particle pollution. Asthma attacks are on the rise 
particularly among our children. As Senator Clinton noted, the 
link between dirty air and real adverse health effects has only 
grown stronger in the last several years.
    Throughout the Clinton Administration, EPA worked with 
States, with businesses, environmentalists, and public health 
experts to find agreement on how to improve public health 
protections. As part of that commitment, in 1996 and 1998, we 
sought comment on a broad range of ideas on how best to enhance 
clean air and improve the New Source Review Program. Our 
guiding principle, first and foremost--cleaner air.
    Unfortunately, no consensus could be reached that both 
improved the program and guaranteed public health improvements. 
To have adopted changes without broad agreement among all of 
the stakeholders would simply have created confusion, increased 
litigation, and left the States with even more pollution 
problems to solve.
    Now, obviously, we can all agree that giving industry 
flexibility in choosing the precise path they follow to meet 
environmental standards makes sense, but it only makes sense if 
it is done with safeguards and verified pollution improvements 
that are enforced. Unfortunately, we have not seen an analysis 
by this administration that their changes do in fact meet this 
test. In many instances, their changes appear to be nothing but 
loopholes that fly in the face of common sense and come at the 
expense of the public's health.
    In terms of the final changes announced by the 
administration, the administration claims that these are 
changes we supported. They are not. Simply taking comment on an 
idea should not be viewed as support of an idea. Taking comment 
on ideas is good government.
    The real test of what we supported should come by looking 
at everything we did over the course of our 8-year tenure--not 
just the 1996 Federal Register Notice, but also the 1998 Notice 
on new source review and the January 19, 2001 memo on new 
source review stating our final positions on a number of key 
issues.
    I would like to note that Mr. Holmstead in his testimony 
focuses exclusively on the 1996 Federal Register Notice. I 
would also like to note that since that Federal Register 
Notice, the two most important ever public health air pollution 
standards were adopted in this country--fine particles and 
ozone. Obviously, the 1996 analysis did not take into account 
those crucial ambient air quality standards. Any rule that goes 
forward today should take into account those two standards, 
which are on the books and have been upheld by the U.S. Supreme 
Court.
    Mr. Chairman, if I might speak to the five final changes. 
First, baseline emissions. New source review requires pollution 
controls only for major modifications that increase air 
emissions significantly. Therefore, it is important to 
calculate a facility's baseline emissions.
    The administration's changes would allow a facility to use 
as their baseline any two consecutive years from the last 10 
years. In other words, a facility could select as its baseline 
years with higher emissions than they are actually emitting 
today. They could then increase their emissions by more than 40 
tons compared to what they emit today and not be covered by new 
source review and a requirement to install modern pollution 
control.
    We did not adopt this change to the baseline emissions 
calculation because we recognized, as any sensible person 
would, that it could lead to more pollution in the air.
    Second, plant-wide applicability limits or PALs. These 
provide a mechanism for providing flexibility, regulatory 
certain to industry, and improved air quality for the public--
but only if the PALs emission cap declines over time or the 
facilities are required to install pollution controls.
    I would ask the committee to look at the 1998 Federal 
Register Notice, where we did propose options for PALs. We even 
undertook pilot projects to understand how PALs work. You 
referenced the one in Delaware. Again, we did not finalize a 
PALs rule that weakens the program, as this administration is 
doing.
    In the January 19, 2001 memorandum, we conditioned our 
support for the concept of a PAL on the requirement that 
facility owners that use PALs commit to install best controls 
before they get this flexibility and certainty, thereby 
ensuring environmental benefits.
    Third, enforceable permits. Citizen participation in 
ensuring enforcement of our environmental laws has been an 
important part of the progress we have made in cleaning our 
air, our water, and our land. It is a check and balance that 
Congress has seen fit to include in numerous laws. It should 
not be undermined, particularly at this time of heightened 
public concern regarding corporate practices.
    The administration's changes to the current permitting 
structure of the New Source Review Program eliminate a system 
of enforceable pollution limits and public transparency.
    Under the current rules, all sectors other than power plans 
may avoid triggering new source review by electing to set an 
enforceable emission limit in a permit, a permit that includes 
operational conditions and restrictions so that the public and 
the State agencies know exactly what the facility is allowed to 
do, and to ensure that the pollution remains below that which 
would trigger NSR.
    The administration's announced changes eliminate the very 
features of the current law that require a permit and guarantee 
public transparency. In its place, a ``catch me if you can'' 
approach that relies upon facilities to set their own limits, 
keep their own records, and then turn themselves in to the 
regulators if they exceed their limits.
    Again, the administration suggests that these are changes 
that we would have adopted. We did look at this issue both in 
1996 and 1998. In 1998, we specifically reaffirmed our 
commitment to maintaining the existing enforceable permit 
system for nonpower plants, and we suggested that perhaps we 
would lift the exemption on power plants. To say we support 
what this administration is adopting is simply not accurate.
    Fourth, clean unit exemptions. The clean unit exemption is 
a mechanism that can encourage the installation of best 
emission controls on uncontrolled or poorly-controlled sources 
even when the facility might otherwise not have to do so.
    We did support a clean version of this concept, and Mr. 
Chairman, you got it just right--it was prospective; it was not 
retroactive. It was for 10 years; it was not for 15 years. 
Under this administration's change, a facility could engage in 
major modifications, significantly increase their pollution 
today, and avoid the requirement to install pollution controls 
simply because they may have installed something 12 years ago--
hardly an incentive to further clean our air.
    Finally, State preemption. Many of our Nation's 
environmental laws recognize the rights of individual States to 
set more stringent pollution standards. Your own State has just 
taken advantage of this right. No two States are the same. 
Their histories are different. How they want to handle a 
challenge can be different.
    The Clean Air Act places tremendous responsibility on the 
States to do their part to ensure clean air. Maintaining the 
State's right to set tougher requirements than national 
standards is paramount to ongoing progress toward clean air.
    The administration's changes do serious damage to the right 
of States to set tougher requirements and thus meet their 
obligations. Any State that decides not to adopt the 
administration's changes to the New Source Review Act will be 
required to legally justify their decision to maintain their 
current programs. You are essentially putting the States 
willing to do more to protect their air in a no-win situation. 
They will have to re-defend programs on the books, delivering 
real clean air benefits, to the very administration the States 
believe is undermining the current program. In fact, the State 
Association of Professional Air Quality Administrators has 
raised significant objections to these changes. These are the 
people on a day-to-day basis who do the work in each and every 
one of our States for cleaner air.
    We proposed to allow States the option of adopting our 
changes; we did not require them to adopt our changes.
    Finally, Mr. Chairman, if I might turn to the proposed 
changes which the administration announced on June 13. If 
adopted as currently described, these proposed changes may 
effectively end the New Source Review Program. I think of 
greatest concern--and you mentioned it yourself--are the 
proposed changes in the definitions of routine maintenance. As 
currently set forth, this change may undercut pending 
enforcement cases filed by the Department of Justice and the 
EPA.
    Some of these cases have already been settled and are 
reaping real public health benefits. These are the very same 
cases that the Justice Department has just completed another 
review of and found to be appropriate under the Clean Air Act. 
In 1999, the Clinton Administration filed cases against 
facilities. At the heart of these cases was the recognition 
that facilities were engaged in much more than mere routine 
maintenance. What they claimed was routine maintenance was in 
fact major modifications that increased air pollution.
    By changing the definition of routine maintenance to 
include virtually everything, one begins to wonder what is left 
of new source review. Under the language the administration has 
now said it will propose, a facility could completely rebuild 
an old boiler with new parts, extend the life of the plant by 
another 30, 35, 40 years, and increase its pollution by tens of 
thousands of tons and still not be required to install new 
pollution control devices.
    In conclusion, Mr. Chairman, flexibility combined with 
ongoing air pollution reductions obviously makes sense. The 
administration owes the American people a public analysis of 
the pollution effects of their actions, clear proof of the 
public health benefits the public will receive--not just an 
explanation of the flexibilities they are providing industry, 
but clear proof of the public health benefits. If they can 
demonstrate real pollution reductions, then show them; if not, 
drop the changes.
    The Clean Air Act is very clear. It requires clean air for 
all Americans. But more important, the public's health demands 
it.
    Thank you.
    Senator Edwards. Thank you very much, Ms. Browner.
    [The prepared statement of Ms. Browner follows:]
                  Prepared Statement of Carol Browner
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today.
    The promise of the Clean Air Act is clean, fresh air and a healthy 
environment for all Americans. The means for achieving this promise are 
first, protective, scientifically based public health standards; 
second, regulatory programs that require industry to do their fair 
share to meet the requirements in an equitable and common sense manner; 
third, vigorous enforcement of the law and fourth, public right to know 
and citizen oversight. These same principles are the foundation of all 
our environmental progress: clean water, clean air, and toxic waste 
cleanup.
    For eight years I had the honor of serving the American people as 
the Administrator of the Environmental Protection Agency. Through our 
work with the career public servants at EPA we made significant 
progress in implementing the 1990 Clean Air Act.
    We adopted the toughest ever scientific based air pollution 
standards for ozone and fine particles and won an historic Supreme 
Court battle 9-0.
    We set new tailpipe and fuel standards for cars and trucks, 
including the first ever clean diesel requirements. Starting in 2004, 
new cars and SUVs will be 77 to 95 percent cleaner than they are today. 
When fully implemented, this rule alone will provide the same benefits 
as removing 164 million of today's cars from the road. For heavy-duty 
diesel trucks and busses, the new standards we adopted will reduce 
particulate pollution by 90 percent and smog forming nitrogen oxides by 
95 percent compared to today's trucks and buses.
    We enforced the law against those who violated air pollution 
standards collecting the largest penalties ever while securing real 
pollution reductions. The diesel engine settlement we negotiated 
included 1.3 million tons a year in nitrogen oxide reductions.
    All of this work is improving, and will continue to improve, air 
quality across the country.
    The current Administration's recent announcement of final and 
proposed changes to the New Source Review Program abandons the promise 
of the Clean Air Act--steady air quality improvements. Some have 
suggested that the Administration's announced chances are changes the 
Clinton Administration supported. Nothing could be further from the 
truth.
    Fundamental to everything we did was a commitment to ongoing air 
quality improvements. There is no guarantee, and more importantly, no 
evidence or disclosure demonstrating that the Administration's 
announced final or proposed changes will make the air cleaner. In fact 
they will allow the air to become dirtier.
    The Administration owes the American people a full analysis of the 
public health and air quality consequences of their announced final 
changes. Not just an explanation of the flexibilities they are giving 
industry.
    A key provision of the Clean Air Act since 1977 has been new source 
review. It is an important and reasonable means of achieving pollution 
reductions. A recognition that older plants, if and when they modernize 
and increase their emissions, should be held to the same pollution 
standards as new plants. New source review thus tailors the technology 
requirements for individual facilities to the public-health based 
ambient air quality standards--providing a backstop that a facility 
will not exacerbate pollution problems--and also guarantees that 
facilities will employ state of the art pollution controls when they 
are built or rebuilt.
    Thus, new source review requires existing power plants, refineries 
and other industrial facilities to install modern pollution control 
equipment only when they make a ``major modification'' to their 
facility AND increase their emissions of the most commonly found air 
pollutants, NOx, SOx and VOCs. Pollutants that contribute to 
significant public health and environmental problems from premature 
death to a worsening of asthma attacks, to acid rain.
    Not every change to a facility triggers a requirement to install 
pollution control equipment. EPA regulations provide exemptions from 
new source review for routine maintenance, repairs, increases in hours 
of operation or production rates. For example, if a facility wants to 
improve its energy efficiency--it is not required to install pollution 
control devices under the new source review program UNLESS it engages 
in major modifications AND increases its pollution by more than 
significant amounts.
    Requiring old facilities to install modern air pollution controls 
when they upgrade their operations and increase their pollution--
controls that new facilities are required to install--only makes sense.
    Older facilities that do not meet modern air pollution standards 
continue to be a huge pollution problem for this nation. Seventy to 
eighty percent of all power plant emissions come from facilities that 
were built before 1977. Compared to the modern or updated power plants, 
old plants emit four to ten times more pollution for every megawatt 
produced creating dramatic adverse health consequences.
    And the health effects from air pollution are significant. Many 
scientific experts estimate that 30,000 Americans die prematurely each 
year from fine particle pollution. Asthma attacks are on the rise, 
particularly among our children.
    Installation of modern pollution controls on old, dirty smokestacks 
means significantly less pollution in the public's air and real health 
improvements.
    Throughout the Clinton Administration EPA worked with States, 
businesses, environmentalists and public health experts to find 
agreement on how to improve public health protections in common sense, 
cost effective ways. As part of that commitment, in 1996 and 1998 we 
sought comment on a broad range of ideas on how best to enhance public 
health and improve the new source review program. In keeping with 
Congress's commitment to the American people and its mandate to the 
EPA, our guiding principle was first and foremost cleaner air. 
Unfortunately, no consensus could be reached that improved the program 
and guaranteed public health improvements.
    To have adopted changes without broad agreement among all of the 
stakeholders would have simply created confusion, increased litigation 
and left the States with even more pollution problems to solve. To have 
adopted changes that did not guarantee ongoing pollution reductions 
would have threatened the promise of the Clean Air Act.
    Obviously giving industry flexibility in choosing the precise path 
they follow to meet environmental standards can make sense, but only if 
it is done with safeguards and verified pollution improvements that are 
enforced. Unfortunately we have not seen the analysis that demonstrates 
that the announced new source review changes supported by this 
Administration do, in fact, meet this test. And, in many instances they 
appear to be nothing but loopholes that fly in the face of common sense 
and come at the expense of the public's health.
                        announced final changes
    The following reviews the Administration's choices for specific 
aspects of New Source Review. In each instance they have chosen the 
most extreme approach under consideration.
Baseline Emissions
    Under the current new source review program major modifications at 
a facility require baseline emissions to be calculated based on the 
average of the most recent two years of emissions, or another ``more 
representative period.'' Since new source review requires pollution 
controls only for major modifications that increase air pollution 
emissions by significant amounts (e.g., 40 tons in the case of NOx, SOx 
and VOCs), it is important to know a facility's ``baseline'' emissions. 
The baseline is used to determine whether there has in fact been a 
significant emissions increase that triggers new source review. The 
Administration's changes would allow a facility to use as their 
baseline any two consecutive years from the last ten years thus 
allowing selection of higher pollution levels for the baseline than the 
two most recent years. By selecting as its baseline years, years with 
higher emissions than the most recent two years, a facility could 
increase its current pollution emissions by more than 40 tons and still 
not be required to install pollution control equipment.
    The Administration has noted that the Clinton Administration took 
comment on a proposal to alloy baseline emissions to be based upon any 
12 consecutive months in the previous 10 years. But crucially, we did 
not adopt that proposal because we recognized that it would in fact 
lead to more pollution in the air, not less. It would have allowed 
facilities to significantly increase pollution above today's levels 
without cleaning up.
Plantwide Applicability Limits (PALS)
    Plant wide applicability limits--``PALS''--allow, on a plant wide 
basis, for emissions increases to be offset with contemporaneous 
emissions decreases to ensure that there is no ``net'' emissions 
increase. PALS can be a useful mechanism for providing flexibility and 
regulatory certainty to industry, and improved air quality and enhanced 
information for the public but only if the PAL'S emission caps decline 
over time or facilities is required to install pollution controls over 
time. In 1998, we proposed various options for PALS to ensure that PALS 
reflected actual emissions levels and strengthened the environmental 
protections provided by the current program. We even undertook pilot 
projects with States to test out various approaches to PALS, such as 
the Daimler-Chrysler PAL with the State of Delaware, which ensured 
state-of-the-art pollution control technology and lower emissions per 
unit than would otherwise be attained.
    Again, we did not finalize a rule which would have weakened the 
existing new source review program as this Administration's PALS 
program will. In a January 19, 2001 memorandum signed by the Assistant 
Administrator for Air, we conditioned our support for the concept of a 
PAL on the requirement that ``facility owners that use PALS must commit 
to install best controls over time to gain this flexibility and 
certainty'' thus ensuring environmental benefits. In 1998 we also 
discussed approaches to shrinking the PAL cap overtime. It is wrong to 
say we would have accepted PALS without a guarantee of required, 
ongoing pollution reductions.
    The Administration's PALS approach abandons the environmental 
benefits that we supported. This Administration's PAL is all about 
flexibility and regulatory relief for industry, without the enhanced 
environmental protections that we supported in order to protect air 
quality and public health.
Enforceability of Emissions Increase--Permit Limits
    The Administration's changes to the current permitting structure of 
the new source review program eliminate a system of enforceable limits 
and public transparency and instead create a system that will be 
difficult if not impossible for the public and State regulatory 
agencies to oversee and enforce.
    Under the current rules governing all industrial sectors other than 
power plants, to avoid triggering new source review a facility may 
elect not to exceed an enforceable emission limits based on its own 
projection of the future actual emissions resulting from a 
modification. These permits reflect the operational conditions and 
restrictions that a facility has agreed to meet in order to ensure that 
its pollution levels will remain below the pollution thresholds that 
would otherwise trigger the new source review program. These permits 
require monitoring, record keeping, and public reporting of emissions 
to ensure that actual emissions are in line with the facility's 
projections.
    Through the current program a facility knows exactly what it can 
and cannot do. The facility sets its own limits and agrees to operate 
within those limits. If the increase in emissions are less than 40 tons 
for NOx, SOx and VOCs new source review is not triggered.
    Through the current program the public knows exactly what a 
facility can and cannot do. The public is protected through a State 
review of changes in emissions and the transparency that comes from 
monitoring, record keeping, reporting and, importantly, the benefit of 
being able to enforce permit conditions if the source does not operate 
in accordance with its own projections.
    The Administration's announced changes eliminate the requirement 
for non-utilities to obtain enforceable pollution limits through 
permits for pollution increases resulting from modifications. Rather 
than having enforceable permits with operating conditions that can be 
monitored, reported and examined by government inspectors in an ongoing 
fashion, the Administration eliminates these safeguards. In its place: 
a catch-me-if-you-can approach that relies upon facilities to set their 
own limits, keep their own records and turn themselves in to regulators 
if they exceed their own limits.
    These changes eliminate the very features of the current law that 
provide transparency to the public--monitoring, record keeping, and 
reporting. Worse, the very minimal records that would be required may 
be shielded from the public because facilities are only required to 
keep them on site. While records submitted to regulators are available 
to the public through State or Federal freedom of information laws, 
records maintained on site at companies may not be available to the 
public.
    Again, the Administration suggests that these are changes we would 
have adopted. As part of the many ideas on which we took comment in 
1996, there was discussion of these permitting issues. We did not 
finalize any of those ideas. More significantly, in 1998, when we again 
took comment on a range. of ideas to change the new source review 
program, we reaffirmed our commitment to maintaining the existing 
enforceable permit system for non-power plants AND indicated that we 
were considering removing the exemption for power plants.
    Eliminating the opportunity for the public's access to information 
undermines the ability of citizens to fully engage in the process of 
protecting their air. Eliminating meaningful, workable opportunities 
for enforcement by the public and regulators undermines our rule of 
law, harms the competitive interests of companies that play by the 
rules and damages public confidence that our air is getting cleaner. 
Citizen participation in ensuring enforcement of our environmental laws 
has been an important part of the progress we have made in cleaning our 
air, water and land. A check and balance Congress has seen fit to 
include in numerous laws. It should not be undermined. Particularly at 
this time of heightened public concern regarding corporate practices.
Clean Unit Exemption
    The Clean Unit Exemption is a mechanism to encourage the 
installation of best emissions controls on uncontrolled or poorly 
controlled sources even when the facility is not otherwise required to 
do so. We supported this concept to provide an incentive for facilities 
to install the best emission controls on old, dirty units, by providing 
certainty that most future modification at such units would not trigger 
new source review for up to ten years--a prospective safe harbor. But 
only so long as they continued to operate the new controls according to 
their new permit limits, which would be lower than they had been. The 
goal was to prompt the installation of best emissions controls on 
uncontrolled or poorly controlled sources, in order to better control 
air pollution and protect public health.
    In contrast, the Administration's clean unit exemption would also 
operate retroactively, allowing a ``safe harbor'' for 15 years based 
upon controls that were installed as far back as 1990. In other words a 
facility could engage in major modifications, significantly increase 
their pollution today and avoid the requirement to install pollution 
controls, simply because they had installed some controls 12 years ago. 
A retroactive exemption of this sort is not an incentive for future 
clean up.
    The Administration again claims that their change is a change we 
supported. Again, in the 1996 Federal Register Notice a clean unit 
mechanism idea was set forth. It was never adopted. We did support a 
prospective exemption period of ten years, not a retroactive exemption 
with a safe harbor period of fifteen years. Moreover, a 15-year 
exemption period would ignore significant improvements in numerous 
cycles of vastly more effective technology, and deprive the public of 
the air quality benefits that come from improved capacities to 
significantly reduce emissions.
    Any retroactive application of the clean unit mechanism does not 
hold true to the guarantee of steady, ongoing progress. The effect of 
the Administration's change will be dirtier air than the current 
program allows.
State Preemption
    Many environmental laws recognize the rights of individual States 
to set more stringent pollution standards than those set nationally. No 
two States are the same, their history varies, the challenges they face 
and how then decide to proceed may vary. The Clean Air Act places 
tremendous responsibility on States to meet public health air pollution 
standards particularly for the most commonly found pollutants such as 
NOx and SOx. Maintaining their right to set tougher requirements than 
the national standards is paramount.
    The Administration's changes do serious damage to the rights of 
States to set tougher requirements and thus meet their obligation to 
the law and the public for cleaner air. Any State that wants to decide 
not to adopt the Administration's changes will be required to legally 
justify their decision to maintain their current programs.
    In stark contrast, we proposed to allow States the option of 
adopting, or not adopting, any changes we might make to the new source 
review regulations recognizing their right to tailor their programs to 
meet the air quality concerns of their States. Because we recognized 
that States might not view our planned changes to the new source review 
program as appropriate for their air quality objectives, we proposed to 
make these changes permissive alternatives for States to consider.
    The Administration's approach has prompted a strongly worded 
message of alarm from the associations of State and local professional, 
career air pollution officials, urging Administrator Whitman to make 
adoption by individual States of changes to the new source review 
program optional.
    In a letter of July 15, 2002, regarding the Administration's 
announced changes the State and Territorial Air Pollution Program 
Administrators and the Association of Local Air Pollution Control 
Officials wrote, ``we strongly urge that you reconsider this approach 
and instead offer these reforms as options for States and localities.'' 
They noted that in the 1996 Federal Register notice regarding new 
source review, we expressly stated that any changes to the program be 
optional, not mandatory, for the States.
    In response to the current Administration's announcement of final 
changes, these associations, representatives of those in the States 
that do the day-to-day work of cleaning our air, issued a statement in 
which they said: ``In January our associations sent a letter to the 
Governor [Whitman] expressing our trepidation that the specific reforms 
being pursued by EPA would weaken the NSR program by allowing an 
unacceptably large number of sources that are currently subject to NSR 
to escape air pollution controls. Nothing in EPA's announcement today 
indicates that the agency has revised its NSR reform plans to address 
our concerns.''
    The Administration has effectively placed the States willing to do 
more to protect their air in a no-win situation. They must re-defend 
programs already on the books and delivering real air quality benefits, 
to the very Administration that the States believe to be undermining 
the current program. While the Administration claims their changes are 
good for the industry and the environment, the State associations 
clearly disagree with the Administration's contention that these 
changes are good for clean air. Any State with its own program will 
have to prove to the Administration that their existing program is at 
least as ``effective'' as the Administrations changed program. But what 
is the test the Administration will apply in reviewing an existing 
State program--cleaner air or industry flexibility?'
                       announced proposed changes
    In addition to finalizing the changes described above, the 
Administration also announced on June 13th, its intentions to propose 
another set of changes to the new source review program. If adopted as 
currently presented these proposed changes may effectively end the new 
source review program and the cleaner air benefits guaranteed by the 
program.
    Of greatest concern may be the proposed changes in the definitions 
of routine maintenance. As currently set forth this change may undercut 
the pending enforcement cases filed the by the Department of Justice 
and the EPA. Some of which have already been settled reaping important 
public health benefits. These are enforcement cases that the Justice 
Department has also recently reviewed and found to be in keeping with 
the Clean Air Act.
    One of the most important tools that Congress gave EPA is the power 
to enforce against those who ignore the law--an environmental cop on 
the beat. Enforcement is important not only to catch the polluters but 
also to maintain the steady progress and to ensure basic fairness and a 
level playing field. It is grossly unfair to those in industry who do 
comply with the law to be forced to compete with those who do not make 
the similar investments.
    In 1999 the Clinton Administration filed cases against power 
generating, refining and manufacturing facilities. At the heart of 
these cases is a recognition that facilities were engaged in much more 
than mere routine maintenance. What companies claimed were mere routine 
maintenances. are in fact major modifications that increased air 
pollution emissions, thereby requiring the installation of pollution 
controls.
    Under language that the Administration has now said it will propose 
in terms of changes to the definition of routine maintenance a facility 
could completely rebuild an old boiler with new parts, extend the life 
of the plant by another 30-35-40 years AND increase its pollution by 
tens of thousands of tons BUT NOT be required to install new pollution 
control devices.
    Application of the new source review requirements to facility 
modifications is a two-step process: first an analysis of the changes 
to the facility and second the amount of pollution increase. By 
altering the definition of routine maintenance to include virtually 
everything a facility might do, regardless of its enormous increased 
emissions--the second test of pollution increase will never be 
triggered. The result of the proposed change to the definition of 
routine maintenance--more pollution for a very long time.
                               conclusion
    Flexibility combined with ongoing air pollution reductions 
obviously makes sense. The administration owes the American people a 
public analysis of the pollution effects of their actions--clear proof 
of the health benefits the public will receive--and not just an 
explanation of the flexibilities they are providing industry, but clear 
proof of the health benefits the public will receive. If in fact they 
can demonstrate real pollution reductions--then show them. If not, 
don't do it. The law requires cleaner air. But more importantly, the 
public's health demands it.

    Senator Edwards. Dr. Thurston?
    Mr. Thurston. Good afternoon, Mr. Chairman. Thank you for 
that kind introduction.
    I did want to clarify one thing. Although I am on the 
faculty at the NYU School of Medicine, I am not a physician. I 
am a researcher. I have my doctorate from Harvard School of 
Public Health, and my scientific research, as you noted, 
involves investigations of the human health effects of air 
pollution.
    I am also director of the NIEHS' Community Outreach and 
Education Program at NYU, and one of the goals of that program 
is to provide an impartial scientific resource on environmental 
health issues to decisionmakers like yourself, and that is my 
purpose in testifying to you today.
    Over the past few decades, as you and Senator Clinton have 
noted, medical researchers examining air pollution and public 
health, including myself, have shown that air pollution is 
associated with a host of adverse human health effects, 
including asthma attacks, heart attacks, hospital admissions, 
adverse birth outcomes, and premature death.
    One of the pollutants most carefully studied in the last 
decade is particulate matter, or PM. Fine particles, such as 
those that result from power plant emissions, can bypass the 
defensive mechanisms of the lung and become lodged deep in the 
lung, where it can cause a variety of human health problems.
    The State of the science on particulate matter and health 
has undergone thorough review, as reflected in the recently-
released Draft 3 of the U.S. EPA's criteria document for 
particulate matter. Since the PM2.5 standard was set in 1997, 
hundreds of new published studies taken together robustly 
confirm the relationship between PM, fine particle pollution, 
and severe adverse health effects.
    In addition, this new research has eliminated many of the 
concerns that were raised in the past regarding the causality 
of PM health effects relationship and has provided plausible 
biological mechanisms for the serious impacts that have been 
found to be associated with particulate matter exposure.
    East of the Mississippi, sulfates are the dominant fine 
particle species, and these particles are mostly from coal-
fired power plants. Moreover, power plants currently emit two-
thirds of the sulfate-forming sulfur dioxide in the U.S. Older, 
pre-1980 coal-fired power plants contribute about half of all 
electricity generation in the U.S. but produce nearly all of 
the sulfur dioxide and nitrogen oxide emissions from the entire 
national power industry.
    Therefore, to reduce particulate matter in the Eastern half 
of the U.S., major reductions in pollution emissions from older 
fossil fuel power plants are essential.
    Recent policy analyses have quantified some of the 
potential health benefits of cleaning up SO<INF>2</INF>, sulfur 
oxides, and nitrogen oxides emissions from presently 
uncontrolled grandfathered power plants that we have been 
discussing here today. These analyses generally rely on the 
methodology prescribed by the U.S. EPA's Science Advisory Board 
for quantifying the benefits of air regulatory actions in 
regulatory impact analyses that we have discussed, RIAs, and 
the prospective and retrospective studies of benefits of the 
Clean Air Act.
    For example, the EPA using this methodology estimated that 
the attainment of the National Ambient Air Quality Standards, 
or NAAQS, for fine particulate matter would avoid over 15,000 
premature deaths per year and hundreds of thousands of asthma 
attacks.
    This type of analysis uses risk assessment methods to 
attribute mortality and morbidity impacts to groups of 
pollution sources like power plants. It rests on the idea that 
if a pollutant has a health effect at current levels, then an 
incremental reduction will have an incremental public health 
benefit.
    Applying this analytical tool to current issues in policy 
debate over power plants yields important information for 
decisionmakers when considering policy changes. For example, 
the Bush Administration recently introduced its Clear Skies 
initiative, the multipollutant power plant legislation, in 
Congress, and the EPA conducted a benefits analysis using the 
SAB methodology. Based on this work, the EPA concluded that 
Clear Skies would avoid some 6,000 premature deaths annually in 
2010 and 12,000 premature deaths in 2020.
    However, before the White House announced the Clear Skies 
proposal, EPA staff had previously recommended a much stronger 
measure with tighter, faster caps, known as the ``Straw'' 
proposal. You can see in my testimony as Attachment A for a 
side-by-side comparison of the competing proposals.
    The EPA also had developed a comparable benefits analysis 
for that Straw proposal that contained estimates for a test 
case that is very similar to the present Environment and Public 
Works proposal, S. 556, finding that these proposed air 
pollution reductions would avoid some 19,000 premature deaths 
per year.
    In summary, comparing the public benefits of these two 
programs demonstrates that Clear Skies would mean approximately 
13,000 unnecessary, avoidable premature deaths in 2010. After 
2018, Clear Skies would still yield 7,000 fewer avoided deaths 
per year as compared to the Straw proposal that is similar to 
the Environment and Public Works proposal, the Clean Power Act.
    These are 7,000 American lives needlessly lost prematurely 
each year when the technology exists today to avoid every one 
of them.
    A similar analysis helps define the stakes involved in 
rolling back the New Source Review Program that we have been 
discussing under the Clean Air Act. New source review 
represents a core program under the Act guaranteeing continuous 
improvement in air quality over time. However, the Bush 
Administration is moving to finalize rules that apparently will 
significantly weaken the program as it applies to over 17,000 
pollution sources nationwide.
    Congress in 1977 for the first time created comprehensive 
emissions standards for new power plants and other industrial 
sources of pollution. It made these provisions prospective, 
grandfathering plants in existence at that time. However, 
Congress did not intend to exempt these older plants from 
modern pollution standards forever. In other words, Congress, 
in creating the new source review, adopted the approach urged 
time and time again by industry itself to synchronize pollution 
control investments with the schedule of normal capital 
improvements in the company's business schedule. So it only 
makes common sense and assures that power plants will not be 
able to extend their grandfather status indefinitely.
    However, according to the EPA, the Justice Department, and 
a host of State attorneys general, including mine in New York, 
that is exactly what many power plant owners have been trying 
to do. In fact, 51 plants have been charged with violating the 
NSR by making investments that should have triggered the 
installation of modern pollution controls.
    So, what are the public health consequences if these power 
plants are not brought up to modern standards? A recent 
analysis calculated the health impacts from full enforcement of 
NSR at those plants. As noted in the table in my written 
testimony, requiring modern pollution controls at the 51 plants 
would avoid between 4,300 and 7,000 premature deaths per year 
and between 80,000 and 120,000 asthma attacks.
    The benefits of enforcing the New Source Review Program 
across the board would be much greater. This is what is at 
stake in the debate over the future of new source review and 
its applicability to power plants.
    Thus, the evidence is clear and has been confirmed 
independently that fine particle air pollution, and especially 
those particles emitted by coal-fired power plants, are 
adversely affecting the lives and health of Americans.
    I would like to at the same time emphasize the importance 
of controlling carbon dioxide from such power plants along with 
the precursor gases for PM and ozone. If we are to continue to 
use coal as a major source of electrical energy production 
while at the same time addressing our growing CO<INF>2</INF> 
emission problem, technology for the removal and sequestering 
of that CO<INF>2</INF> will also need to be developed and 
applied to these coal-fired power plants. The Bush Clear Skies 
proposal fails to address CO<INF>2</INF> reductions.
    In conclusion, it is important for committee members to 
realize that, first, time and again, health researchers have 
found that power plant pollution is associated with severe 
health impacts, including asthma attacks and premature death.
    Second, the Bush Administration's Clear Skies legislation 
would do too little, too late, to solve this public health 
problem. Deeper and faster pollution cuts such as those 
embodied in the Clean Power Act, S. 556, are needed.
    And third, the Bush Administration's announced rollbacks of 
the New Source Review Program will undercut the efficacy of the 
Clean Air Act, and no weakening of Clean Air Act's protection 
of public health should be tolerated.
    The Bush Administration's current proposals would result in 
the public unnecessarily continuing to bear preventable, 
diminished quality of life and health care costs we must 
presently pay because of the adverse side effects of needless 
air pollution from uncontrolled fossil fuel power plants.
    Thank you for the opportunity to testify on this important 
issue.
    Senator Edwards. Thank you very much, Mr. Thurston.
    [The prepared statement of Mr. Thurston can be found in 
additional material]
    Senator Edwards. Dr. Ballantine?
    Dr. Ballentine. Thank you, Senator.
    It is indeed an honor to be here today with Dr. Thurston 
and Ms. Browner; it is truly an honor to be up here.
    I am an internal medicine hospitalist, and I practice in 
Asheville, NC. We sit right in the middle of all these 
grandfathered power plants. Depending on which way the wind 
blows, we are downwind from somebody's emissions at all times.
    I am basically speaking to you from the front lines. This 
is something that I see every day, what I am going to talk 
about today. We are losing the battle against lung diseases. It 
is the only top killer in our country where the death rates are 
still rising, and air pollution plays a part in this.
    In my part of North Carolina, we have the healthiest region 
in every category of death except in lung diseases, and there, 
we actually lead the State as having the worst regional 
mortality.
    Unfortunately, it sounds like the loopholes and back-
pedaling involved in the Clear Skies initiate are going to make 
this worse.
    The medical verdict is in. Dr. Thurston's study is a major 
landmark study about the effects of particulates on human 
health. But it is only one snowball in an avalanche of medical 
data about the health effects of air pollution. These effects 
span from the cradle to the grave--impaired fertility, birth 
defects, impaired lung growth, asthma, allergies, pneumonia, 
bronchitis, emphysema, lung cancer, heart attacks, strokes, and 
premature death have all been tied to air pollution exposure.
    Up to 4 percent of all U.S. deaths are due to air pollution 
exposure. Just breathing in North Carolina is like living with 
a smoker. We have a 1- to 3-year decrease in our life 
expectancy. In North Carolina, 50 percent of our ozone and 80 
percent of our particulates come from coal-fired power plants.
    The Southern Appalachian Mountains Initiative (SAMI) study 
mapped pollutants and how they flowed across borders and where 
they came from for the 7-State region in the Southeastern U.S. 
The SAMI data shows conclusively that we get smog from all of 
our neighboring States, and we do the same thing to them under 
the current setup. But in Western North Carolina, the Tennessee 
Valley Authority power plants are a major contributor to the 
air pollutant loads that we have to deal with. Tennessee gets 
cheap electricity. Western North Carolina gets death, disease, 
acid rain, and asthma. And we do get asthma. Up to one-third to 
one-half of all the asthma in North Carolina has been 
attributed to air pollution exposure. Some studies that we have 
seen say that we have a quarter of a million asthma attacks 
every summer extra just due to the air pollution exposure--
2,000 hospitalizations every summer from the same exposure.
    Asthma is the 800-pound gorilla of children's health care. 
It is an epidemic. We are diagnosing 10 percent of our kids in 
North Carolina and most other States across the country as 
having asthma. School surveys done in every middle school in 
North Carolina show that in fact significant repetitive asthma 
symptoms are happening to 25 to 30 percent of our children.
    Asthma is the number one chronic illness in children. It is 
the number one health care cost for children, number one for 
health expenditures and hospital costs. It is also number one 
for lost school days and lost revenue to the school systems.
    If President Bush is serious about leaving no child behind 
in the American education system, we need to get clean air in 
order for these kids to make it to school. This backpedaling 
and compromise in the Clean Air Act is only going to worsen 
this situation. The costs themselves are staggering. For these 
same 7th and 8th graders alone, in North Carolina alone, for 
hospitalization alone, we are spending $15 million a year. If 
you throw in the other children's age groups, the cost of 
doctor visits, medications, lost wages to the parents who have 
to stay home to nurse their children through their illnesses, 
we lose $100 million a year in North Carolina to asthma. This 
is not an investment in anybody's future.
    Fifty percent of our children in Western North Carolina are 
on Medicaid. This asthma expense is a State budget buster. The 
State of North Carolina is having trouble making ends meet 
right now at the State level. Programs have been slashed right, 
left, and center. There are significant savings in the health 
expenditures if we act to preserve clean air.
    At the county level, our Buncombe County Health Department 
spends close to half a million dollars a year on asthma care 
alone. It is the largest item in the budget, and it represents 
about 15 percent of their annual budget.
    Our clinics and the medical specialists who take care of 
people with respiratory diseases have seen a one-third increase 
in the volume of patients this summer due to the bad air. 
Asheville again this year, like most North Carolina cities, is 
in nonattainment for both ozone and particulates. We are a 
small city, yet we have air pollution levels that rival the 
major urban areas of the Eastern U.S. Over the entire Southern 
U.S., there are 33 million people paying $20 billion a year in 
excess health care costs because of air pollution.
    To understand this you really have to look at normal lung 
function. As children grow up, their lung capacity increases as 
part of normal growth until they hit about age 20, and then, 
like a lot of other things in life, from there on, it is 
downhill. This is normal lung aging.
    There are studies now that are showing decreases in lung 
capacity development in children who grow up in dirty air. 
These dirty air levels are just like what we have in North 
Carolina. These children are compromising their maximum lung 
potential, and they are capping it off.
    We are not going to find the next Lance Armstrong among 
these children. And if you continue to live in air pollution, 
your decline in lung function happens faster. We are raising a 
generation of children at risk for a huge burden of premature 
lung disease.
    In North Carolina, we passed the Clean Smokestacks Act. It 
will bring about a 75 percent reduction in sulfates and 
nitrogen oxides, and one of the key component of this Act was 
that the credits were signed over to the people of North 
Carolina so they cannot be sold by the utilities to our 
surrounding States just to send it all back to us.
    The cost benefits are that we will pay $200 million a year 
in excess power bills, and we will get $1.2 billion in health 
care savings. We are not paying for our electricity completely. 
We are paying for it as we go. We pay for it in higher health 
care costs, which lead to higher insurance premiums. We pay 
more Federal taxes to cover the Medicare, State taxes to cover 
the Medicaid, and county taxes to cover the health departments. 
This is a massive cost shifting, and Clear Skies is clearly 
going to make this worse. It is a huge public health problem, 
and we feel the impact in Western North Carolina.
    Coal-fired power plants have caused a level of death and 
disease in this country that no foreign power has been able to 
achieve on our native soil. We have taken steps in North 
Carolina to clean up our air, but we are going to have it all 
come washing back into our State unless the provisions of the 
Clean Air Act remain intact to force the other States to clean 
up.
    On behalf of the patients that I see, the elderly, and most 
of all, our children, I urge you to please clean up our air 
now. We cannot afford not to do this.
    Thank you.
    [The prepared statement of Dr. Ballantine follows:]
              Prepared Statement of Clay Ballantine, M.D.
    Good afternoon, and thank you for the chance to address you about 
this topic. My name is Dr. Clay Ballantine and I practice internal 
medicine in Asheville, NC. I take care of adults with general medical 
diseases including cancer, heart and lung diseases. What I am going to 
talk about today, I see every day.
    The top three killers in the U.S. are cardiovascular diseases, 
cancer, and lung disease. All three of these are worsened by air 
pollution exposure. Through scientific advances, we are gaining ground 
on the first two, but we are losing the battle against lung diseases. 
The death rate from lung disease is still rising despite these advances 
and despite reduced cigarette use. Recognizing the large and compelling 
body of medical evidence proving the links between air pollution and 
bad health, the North Carolina Medical Society unanimously, passed a 
resolution urging our elected officials and regulatory agencies to act 
now to eliminate air pollution. I urge other State medical societies to 
look at this problem and make a stand for the health of the respective 
populations they serve.
    The President's Clear Skies Initiative will weaken the Clean Air 
Act and potentially worsen air pollution. This will have a huge impact 
on the health of our country and my home State. The economic and human 
health costs will be overwhelming. We cannot afford even our current 
levels of air pollution.
    The spectrum of negative health impacts spans from the cradle to 
the grave. Lower fertility, birth defects, impaired lung development, 
increased asthma, pneumonia, bronchitis, emphysema, heart attacks, 
strokes, lung cancer and premature death have all been tied to air 
pollution exposure. The medical journals are full of studies proving 
this. While research can count deaths and hospitalizations. the effects 
of air pollution reach far deeper into peoples' lives than we will ever 
be able to see in studies. Bad air takes away peoples' health, their 
money, their recreation, their options and their loved ones. We cannot 
quantify those losses.
    To understand air pollution effects, you need to know that normal 
lung capacity increases as we grow until about age twenty. Then lung 
function gradually decreases as part of normal aging. Air pollution 
exposure in children damages developing lungs. These children do not 
reach their full lung potential. With aging they will cross the 
threshold of inadequate lung function earlier in life. It is no longer 
safe for our children to play outside. Even otherwise healthy adults 
have more rapid declines in lung function if they live with air 
pollution. This is a huge burden of premature lung disease we are 
visiting on our children. We have not begun to pay these costs for our 
current pollution.
    Half of North Carolina's ground-level ozone comes from coal-fired 
power plants. Breathing ozone-polluted air is like inhaling bleach. It 
irritates and inflames lung linings, similar to the way sunburn damages 
skin. Ozone sets off airway spasms. We now know it CAUSES asthma, as 
well as worsening existing asthma. It damages immune system infection 
fighting responses, leading to more pneumonia, bronchitis, and 
sinusitis. This irritation also heightens responses to allergens, 
worsening allergy attacks. EPA data shows that the Southeast Region has 
the worst increases in ozone exposure in the nation over the last 10 
rears.
    Coal-fired power plants generate about 80 percent of North 
Carolina's particulate pollution. Particulates irritate the lungs 
themselves, but also set off diffuse inflammation of the entire 
cardiovascular system. High particulate levels cause increased asthma, 
heart attacks, lung cancer, strokes, and premature death. They are 
implicated in up to four percent of all U.S. deaths. Living in an area 
with particulate levels like Asheville's is like living with a smoker. 
The drop in life expectancy is about 1 to 3 years. Asheville ranks 6th 
highest in the nation for excess per capita death rates from coal-fired 
power plant pollution, losing almost 100 extra lives a year.
    The Southern Appalachian Mountain Initiative data showed that all 
our regional States are bad neighbors with respect to air pollution. 
Smog spreads into North Carolina from all of our neighbors. Our 
emissions do not respect State lines either. Air pollution is a truly 
regional and national problem. Asheville is a small city but our air 
quality is as bad almost any major urban area. We are almost always 
downwind from some surrounding pollution source. Tennessee and the 
Tennessee Valley Authority power plants contribute a significant 
percentage to our air pollution. They get cheap electricity and we get 
ozone, disease, death, and acid rain.
    Asthma is the 800-pound gorilla of children's health care and it 
has reached epidemic proportions. Every age group has seen over 50 
percent increases in asthma rates over the past 20 years and most age 
groups have gone up by over 100 percent. Asthma is the number one 
chronic disease among our children. It is number one for 
hospitalizations, for overall health-care costs, and for lost school 
days and lost revenue to our school systems. The national diagnosis 
rate for asthma is about 10 percent. This is similar in North Carolina, 
but statewide surveys show 25-30 percent of our children have 
significant asthma symptoms. These state asthma symptom numbers are 
continuing to rise in spite of a possible leveling off at the national 
level.
    EPA studies show that one third to one half of the asthma in North 
Carolina is due to air pollution. Every summer in North Carolina, air 
pollution causes an extra 20,000 asthma attacks, 6,300 ER visits and 
1,900 hospital admissions. Asthma costs are staggering.
    For North Carolina 7th and 8th graders alone, for hospital and ER 
costs alone, we spend over 15 million dollars every year. Include the 
other children's age groups, add the costs of medications and doctor's 
office visits, and add the lost wages from parents who miss work to 
care for sick children, and we lose over 100 million dollars every year 
to children's asthma. This is not an investment in our children's 
future. About half of the children in North Carolina are on Medicaid. 
Our Buncombe County Health Department spends close to one half million 
dollars, almost 15 percent of it's annual budget a year on asthma 
alone. There are 99 other counties in North Carolina. This is a State 
and county budget-buster.
    The majority of people in the Southeast Region, 33 million people, 
live in unhealthy air. We pay over $20 billion every year in air 
pollution related health costs. The EPA analysis of the Southern 
Appalachian Mountain Initiative data projected health benefits to the 
Southeast Region from stringent particulate air pollution control 
ranging from $36 billion to $68 billion per year.
    Generating electricity is costing us many times over. The greatest 
amount of this extra illness falls on the children and elderly that we 
protect with State and Federal programs. We pay more in Federal taxes 
for Medicare, more in State taxes for Medicaid, and local taxes for our 
county and city health departments. Overall health care costs and 
insurance premiums are higher as well. Our school systems lose revenue 
due to the increased absences.
    The Great Smoky Mountains National Park is in our back yard. It has 
the worst air of any national park. This year, the park is on a pace to 
break its own record for the most bad air days of any park ever. The 
Clear Skies Initiative protection rollbacks will not be enough to save 
the park and its air. The last similar initiative involving cap and 
trade strategies actually worsened the air in the Great Smokies and our 
part of North Carolina. Under Clear Skies, the clean will get cleaner 
faster and the dirty will stay dirty longer. Because we are surrounded 
by these older power plants, this may further delay our achieving clean 
air.
    The resolution of the problems will take a multi-faceted approach. 
With passage of our State's North Carolina Clean Smokestacks Act, we 
have taken a major step to clean up our air and to reduce our impact on 
our neighbors. North Carolina challenges other States to do the same. 
The executive branch and EPA are only slowly getting the job done as it 
is but there is progress. But one of the reasons the parties came to 
the table to work out this historic compromise was the strength of the 
existing Clean Air Act provisions. That incentive will be compromised 
if the Clear Skies Initiative is put into place.
    The Clean Smokestacks Act works because we found a way to help the 
utilities pay for the clean-up. The average household will see an 
effective increase of $1 to $5 per month on electric bills. Surveys 
showed near unanimous support for this extra cost to achieve clean air. 
With $200 million in annual costs for the clean-up, we will save $1.2 
billion every year in health costs. Our State budget needs these 
sayings.
    In the current scheme, it is cheaper for utilities to lobby for 
weakening standards and to delay through court cases than it is to pay 
for the pollution reducing equipment. The technology is available to 
achieve even more significant reductions in pollution than are mandated 
in the original Clean Air Act. Given better economic incentives and 
assistance, the utilities in North Carolina have proven to be good 
corporate citizens. We need to do this at the Federal and State levels. 
If the clean air standards are weakened with the Clear Skies 
Initiative, we may well see a round of State versus utility, State 
versus State and State versus Federal lawsuits that will rival the 
magnitude of the tobacco quagmire. This is the least efficient way to 
solve the problem.
    On behalf of our children, our elderly and the patients I see, I 
urge you to not only preserve the integrity of the Clean Air Act, but 
to move now to stronger legislation to clean up our air. There is no 
better investment in our nation's future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Edwards. Thank you very much, Dr. Ballantine.
    Let me ask you, since you just finished, about one thing 
that I know you were involved in, because I think you were 
active in the effort to pass Clean Smokestacks, North 
Carolina's State legislation, which Ms. Browner made reference 
to.
    Can you tell us a little bit about what you learned from 
that process and your activity and your involvement in that?
    Dr. Ballentine. There are really four major points to that. 
No. 1, it was the strength of the provisions of the Clean Air 
Act that brought the parties to the table. We were going to 
have to comply with the Clean Air Act, and that is what 
stimulated the entire discussion and the compromising that went 
on.
    No. 2 is that we could not get the Smokestacks Act passed 
as just an environmental issue. Even the tourism impacts, the 
forestry impacts were not enough to get it passed. It was only 
when we pointed out the health economics of the issue that the 
overwhelming support came, and we got the Act passed and 
signed.
    No. 3, it is very difficult to regulate utilities into 
compliance. There is too much money at stake. They are too 
powerful, and it is a lot cheaper for them to lobby for 
loopholes and fight it in court than it is to actually clean it 
up. Basically, what we did was we paid them to clean it up. 
They preserve their solvency and their profit streams, and we 
reap the health benefits.
    Surveys that we did at the time showed that the $1 to $5 
per household per month that it was going to take to do this 
was easily within people's reach, and they were eager to pay it 
in order to get clean air.
    Finally, we were aware that if we did not get the Clean 
Smokestacks Act through and clean up the air, we were in a 
position where this was going to degenerate into a set of 
lawsuits that would dwarf the tobacco debacle. There will be 
States suing other States, States suing the Feds, and States 
suing individual utilities to recoup their health care costs. 
And this is the least efficient way to solve the problem.
    Senator Edwards. Thank you very much, Dr. Ballantine.
    Mr. Thurston, let me ask you a question if I can. Can you 
comment on the ability of scientists to evaluate the human 
health impact of the kinds of changes that are being proposed 
here?
    Mr. Thurston. Well, I think there is a definite methodology 
that is used based on published literature. In other words, 
scientific knowledge is continually changing as we learn more 
and more, and certainly in the case of fine particles, we have 
learned a great deal in the last 5 to 10 years such that that 
would need to be updated and reconsidered, such as the result 
that you mentioned about the study that I was principal 
investigator on where we found a definite connection between 
exposures to ambient air pollution and lung cancer, such that 
living in a U.S. city, the risk of lung cancer is roughly 
comparable to a nonsmoker living with a smoker. Certainly that 
information needs to be added into the process and evaluated.
    But there is definitely a method that is out there that is 
based on the science that allows us to estimate what is the 
number of adverse impacts. Now, of course, we are always stuck 
looking under the lamppost. There are health effects out there 
that we have not assessed. So I would say that if anything, the 
way the process works, it is much easier to estimate the cost 
of cleanup than it is to actually get the full benefits of the 
cleanup. We are always missing some of those.
    In the pyramid of effects, we do not really know 
everything. Senator Clinton was talking about trying to get a 
bill where people would keep inventories of adverse health 
effects and to be able to assess what health effects are out 
there. The fact is we do not have national health care in the 
U.S., so we really do not know a lot of times what the adverse 
health effects are because we do not have the data to find it 
out.
    But with that caveat that we are probably underestimating 
the adverse health effects of pollution, yes, we can; for the 
outcomes that we have studies, we are able to estimate what the 
benefits if you are cleaning up would be and then estimate the 
impact of different proposals and then compare them.
    Is that responsive to your question?
    Senator Edwards. That is exactly what I was asking. Thank 
you.
    Ms. Browner, you were here for Mr. Holmstead's testimony, 
were you not?
    Ms. Browner. Yes, I was.
    Senator Edwards. And unfortunately, he is not here now. But 
can you tell me--you heard his testimony that your regulatory 
impact analysis that was done back in 1996 supports the idea 
that these proposed changes that he and the administration and 
the EPA have in fact will not increase pollution. Do you agree 
with that?
    Ms. Browner. I do not agree with how he has characterized 
what we did in 1996 or in fact his characterization that we 
support the changes that they are not adopting.
    In 1996, we took comment on a whole array of ideas. They 
have picked a set of those, and they have even changed some of 
the ones that they have picked. The regulatory analysis went to 
the whole array; it did not simply go to the ones that they are 
now picking.
    But far more important, Mr. Chairman, we did not adopt 
those. We heard from people, and what we heard caused us to 
have concern. So we went back, and we thought, and we met with 
people, and we analyzed, and we made another proposal in 1998, 
and we heard from people again.
    So I do not think it is fair to simply take one moment in 
time or one piece of one moment in time and say that that is 
what we supported. We did not support the changes in 1996 in 
the way that they are adopting them. We did not adopt them. 
That is the evidence.
    Senator Edwards. And from your review of all the materials, 
has there been a serious analysis done by the EPA of the 
effects on human health of these proposed changes in the law--
the proposed changes in the law and the changes that they are 
about to finalize.
    Ms. Browner. Well, I think for the final changes, I have 
certainly not seen one, and I think that as both you and 
Senator Clinton noted, to rely on something dating back now 6 
years ago when a lot has changed in terms of the science and in 
terms of the air pollution standards that industry and States 
have to now meet does not really fly.
    I think that the--well, I think it is completely fair for 
the Congress and the American people to ask the current 
administration to take those things which they want to finalize 
and do an analysis before the Administrator signs it--not after 
the Administrator signs it and it comes to Congress--before the 
Administrator signs it.
    Senator Edwards. From your review of the proposals that are 
being made by the administration, compared with the proposals 
that you all considered both in 1996 and in 1998--and in the 
memo, I think----
    Ms. Browner. And the memo of 2001, which is really the 
final word.
    Senator Edwards [continued].----which followed all that--
does it appear to you that this proposal which they are 
pursuing at this point--because it does to me--appears to be 
friendlier to polluters and dangerous for people's human 
health, based upon what we can see?
    Ms. Browner. It is hard for me to see in their proposal 
which they want to sign now any clear indication that there 
will be significant and real public health improvements. It is 
very hard to see that.
    It is much easier to see that there will be real 
opportunities for the air to get dirtier.
    Senator Edwards. But can those things be analyzed?
    Ms. Browner. Yes.
    Senator Edwards. Is that the kind of information that we 
could get and look at?
    Ms. Browner. EPA has done far more complex analysis than 
the one you are asking for. It is eminently doable, absolutely 
eminently doable.
    Senator Edwards. Dr. Ballantine, one last question for you. 
You mentioned to me when I spoke to you earlier the effect on 
your lung capacity of hiking in the mountains in North Carolina 
now. I wonder if you could tell folks about that?
    Dr. Ballentine. It is unfortunate that the Senators from 
New Hampshire and Vermont are not here right now. There was a 
study done in Mount Washington I think by the Harvard School of 
Public Health many years ago that showed that hikers who went 
up there were exposed to air pollution, and they had lung 
function changes, 5 to 7 percent decreases in their lung 
function just after a 2-hour hike in the mountains.
    Right now, the Great Smoky Mountains National Park has the 
filthiest air that any National Park has ever recorded, and 
currently, they are on a pace to break their own record. This 
year, they are already well ahead of where they were last year, 
and it is likely that this will turn out to be their banner 
year for horrible air.
    The study that they are doing there, up at Klingman's Dome, 
is a hiker study--healthy people going for a walk in the 
mountains for a couple of hours and coming back. One of the key 
factors about this--the data is not back on it yet, but one of 
the key factors is that the air pollution levels in the Smokies 
today, in spite of all these improvements in air quality, are 
running twice the levels that were seen in the Mount Washington 
study several years ago. And we will wait for Susan Smith and 
the others involved with this from the University of Tennessee 
to publish their data later, but I think it is fairly safe to 
assume that we are going to see that there are definite, at 
least transient, changes in people's lung function. If you 
extrapolate that out over multiple times of having that 
problem, you are going to end up with a chronic lung problem.
    Senator Edwards. Thank you very much, Dr. Ballantine.
    Ms. Browner, thank you.
    Ms. Browner. Thank you.
    Dr. Thurston, thank you.
    Did you have something else you wanted to add?
    Ms. Browner. I would just ask that my written testimony be 
included in the record.
    Senator Edwards. Yes, it will be.
    Let me just say that I believe these changes, these 
proposals, are wrong, and I think they are a gift for polluters 
and result in dirty air for our kids and for seniors who have 
trouble breathing. I think there has been basically zero 
serious analysis of the effects that these changes will have on 
human health. They are relying on a 6-year-old study which was 
a study of a different set of proposals. During that 6 years, 
the science has changed, as a number of the witnesses have 
testified to today.
    Ms. Browner, who was the person responsible for the 
proposals in the Clinton Administration and for the studies 
that were conducted, has testified that they do not support the 
changes that are being proposed.
    Basically, what the administration is saying to us is 
``Trust us.'' Well, I am not willing to trust the 
administration with the health of our children. I think we need 
to take a serious look at what impact these changes and these 
proposals will have on the health of all Americans.
    They do a number of things in these proposals. They let 
polluters play games with baselines by choosing their own 
period for determining what the baseline is and how that 
affects whether they are in fact increasing pollution. In their 
Clean Unit exemption, they make it 15 years retroactive, which 
means that, as Ms. Browner just testified, a polluter could 
have done something 12 years ago and used that as the basis for 
having this exemption be available to them.
    They have made a massive change in their proposed routine 
maintenance exception, which would essentially eliminate, in my 
judgment, new source review, because it makes almost everything 
exempt from new source review.
    So these are serious issues. They are not in any way 
academic or abstract. As Dr. Ballantine and others have 
testified, this affects the health of our kids, it affects the 
health of senior citizens, and my intention is to do everything 
in my power to stop it, since we got no indication from the 
administration today that they would provide this information 
to us before actually publishing the final rule. And that 
intention includes, if necessary, adding a rider to the VA-HUD 
appropriations bill.
    I appreciate very much the witnesses' testimony today. I 
think this is an enormously important issue for the American 
people.
    This hearing is adjourned.

                           ADDITONAL MATERIAL

                  [Prepared Statement of Mr. Thurston]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 4:19 p.m., the subcommittee was adjourned.]

                                    

      

</pre></body></html>
